<html>
<title> - INDIAN EDUCATION</title>
<body><pre>[Senate Hearing 109-565]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-565

                            INDIAN EDUCATION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

          OVERSIGHT HEARING ON THE STATUS OF INDIAN EDUCATION

                               ----------                              

                              MAY 25, 2006
                             WASHINGTON, DC

                            INDIAN EDUCATION

                                                        S. Hrg. 109-565
 
                            INDIAN EDUCATION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

          OVERSIGHT HEARING ON THE STATUS OF INDIAN EDUCATION

                               __________

                              MAY 25, 2006
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
27-768                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Akaka, Hon. Daniel K., U.S. Senator from Hawaii..............     3
    Cason, James E., associate deputy secretary, Department of 
      the Interior...............................................     3
    Carothers, Cathie, acting director, Office of Indian 
      Education..................................................     5
    Corwin, Thomas, director, Division of Elementary, Secondary 
      and Vocational Analysis Budget Service.....................     5
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     1
    Gipp, David, president, United Tribes Technical College......    21
    Kirsch, Beth, series producer, Between the Lions, WGBH Boston    19
    Marburger, Darla, deputy assistant secretary for policy, 
      Office of Elementary and Secondary Education, Department of 
      Education..................................................     5
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    Skenandore, Kevin, acting director, Office of Indian 
      Education Programs.........................................     3
    Small, Ivan, board secretary, National Association of 
      Federally Impacted Schools; superintendent, Fort Peck 
      School District, Poplar, MT................................    16
    Teba, Bernie, Native American Liaison, New Mexico Children, 
      Youth and Families Department..............................    19
    Wilson, Ryan, president, National Indian Education 
      Association................................................    15

                                Appendix

Prepared statements:
    Cason, James E. (with attachment)............................    35
    Chee, Leonard, chairman, Navajo Nation Council, Education 
      Committee..................................................    43
    Gipp, David..................................................    48
    Johnson, Florian Tom, dual language and cultural director, 
      Dine language medium school, Window Rock Unified School 
      District No. 8, Navajo Nation, Fort Defiance, AZ...........    61
    Kirsch, Beth.................................................    33
    Marburger, Darla (with attachment)...........................    67
    Small, Ivan..................................................    79
    Teba, Bernie.................................................    94
    Wilson, Jennifer, Federal projects coordinator...............    61
    Wilson, Ryan (with attachment)...............................   101
    Wilson, William H., division chair, Hawaiian Language college   175
Additional material submitted for the record:
    Achieving Adequate Yearly Progress: A Study Of 16 BIA-Funded 
      Schools....................................................   177


                            INDIAN EDUCATION

                              ----------                              


                         THURSDAY, MAY 25, 2006


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
485 Senate Russell Office Building, Hon. John McCain (chairman 
of the committee) presiding.
    Present: Senators McCain, Akaka, Dorgan, and Murkowski.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning and welcome to the oversight 
hearing on Indian education. One of the most important issues 
facing our Nation continues to be the education of our 
children. Providing a quality education for every child is 
critical not only to the prosperity of our Nation, but to 
ensuring that each child reaches his or her full potential.
    However, these obligations appear to go unfulfilled for 
Indian children. According to the 2005 National Assessment of 
Education Progress report issued this week, only 18 percent of 
Indian fourth graders scored at or above the proficient level 
in reading; 52 percent scored below basic levels. For Indian 
eighth graders, only 14 percent were at or above proficiency in 
math, with 47 percent below basic levels and 17 percent at or 
above proficient in reading; 41 percent scored below basic 
levels.
    Last summer, we held an oversight hearing on the same topic 
and were informed that many developments were in the works to 
improve Indian education. The committee was concerned that the 
academic achievement of Indian children fell behind their non-
Indian peers, but was pleased to hear the commitment from the 
Administration in changing those results.
    I look forward to hearing what has been achieved since last 
summer, and welcome the witnesses.
    Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. Mr. Chairman, thank you very much, and 
thanks for holding this hearing.
    About 2 months ago, this committee and myself held a 
listening session on youth and education issues at the Standing 
Rock High School in Fort Yates, ND. We were joined by tribal 
leaders from throughout the entire region, and we heard from a 
good many people who spend nearly every hour of every working 
day with Indian children. These were school administrators, 
child psychologists, teachers, members of school boards, and 
members of the community.
    I started that day in Fort Yates, in fact, Mr. Chairman, 
with about 1 dozen students and a 1-hour conversation with no 
one else present, just myself and 1 dozen students at the Fort 
Yates school. It was a fascinating discussion to talk about 
their lives and the issues they face.
    Those students and their fellow students throughout Indian 
country are our best guides on how to provide the tools for 
them to succeed. One of the things that is important is that we 
do need new textbooks and new classrooms. Those things are 
important, but more than that, for many children on Indian 
reservations, sometimes it is as basic as finding a bed to 
sleep in at night, having a drug and alcohol free environment 
in which to live, and healthy food to eat.
    The young basketball player on the Fort Yates basketball 
team was homeless, sleeping in different houses every night, 
just finding places to stay, and yet he was a basketball player 
on their high school basketball team. Those are the kinds of 
things they confront.
    I am really pleased today that the witnesses are a good 
cross-section of folks who will discuss many education issues 
to reflect from the youngest to the oldest students. I have 
been a big fan of tribal colleges, as you know, Mr. Chairman. 
So we have a lot to do with respect to Indian education.
    I want to tell you, you and I have had schedule issues in 
recent hearings. The Energy Committee is holding a hearing at 
10 o'clock that I had requested be held on railroad rates and 
captive shippers, so I have to go over to the Energy Committee. 
I apologize for that.
    But one of the witnesses today was someone I had asked to 
join us, and Mr. Chairman, thank you for your consent. He is 
Dr. David Gipp. Dr. David Gipp has committed his life to 
education. He is one of the premier education leaders in our 
country. He is the president of the United Tribes Technical 
College in Bismarck, ND, a really extraordinary institution. He 
is going to be on the second panel. If Dr. Gipp would stand up 
just so that we all recognize Dr. David Gipp. Thank you for 
being with us.
    I don't know whether I will be back from the Energy 
Committee by the second panel, but I do want to give special 
recognition to education excellence. We recognize it when we 
see it, and I certainly see it in Dr. Gipp and what is 
happening at the United Tribes Technical College.
    Again, the three key issues for us are always education, 
health care and housing. Mr. Chairman, you have scheduled 
hearings in a range of areas on all of these issues. Thank you 
for that leadership. Today, education is front and center and I 
appreciate all the witnesses who will come and testify.
    The Chairman. Thank you very much, Senator Dorgan. We 
appreciate Mr. Gipp being here.
    Senator Akaka.

  STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you, Mr. Chairman, and thank you for 
holding this important hearing.
    As a former educator and principal in the State of Hawaii, 
I have witnessed how the quality of education shapes not only 
our youth, but also our communities. By holding this hearing, 
the committee is taking a necessary step and leadership role in 
addressing a range of issues associated with American Indian, 
Alaska Native and Native Hawaiian education.
    It is our responsibility as Government leaders to provide 
our youth with the resources and tools they need to become 
productive citizens and to fulfill their personal goals and 
ambitions. I am pleased that the U.S. Department of Education 
has reported gains in academic achievement of Native students. 
However, there is so much more that needs to be done to better 
meet the needs of BIA and tribal schools, especially regarding 
the recruitment and retention of highly qualified teachers, 
improvement of high school graduation rates, and the 
implementation of Native language and cultural programs.
    As we develop solutions, we must be mindful of the unique 
challenges confronting our educators and our Native youth. 
Action and investment in the preservation of Native languages 
is needed. Last month, I introduced S. 2674 to promote the 
rights and freedoms of Native Americans to use, practice and 
develop Native American languages in order to ensure that 
children across the country are given the opportunity to 
develop their Native language skills.
    Language is the primary means by which a culture's 
traditions and shared values are conveyed and preserved. It is 
imperative that we encourage our children to explore the 
uniqueness of their culture and identity, while developing an 
understanding of the world around them.
    Language preservation requires partnerships to be forged 
that link young and elderly and strengthen their sense of pride 
and community. While I am unable to stay, Mr. Chairman, to hear 
testimony from our witnesses, I look forward to continuing to 
work with all of you to better meet the educational needs of 
our youth.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Akaka.
    Our first panel is James Cason, associate deputy secretary 
of the Department of the Interior. He is accompanied by Kevin 
Skenandore; and Darla Marburger, who is deputy assistant 
secretary for Policy, Office of Elementary and Secondary 
Education at the Department of Education. She is accompanied by 
Cathie Corothers, the acting director of the Office of Indian 
Education, and Thomas Corwin, who is the director of the 
Division of Elementary, Secondary and Vocational Analysis 
Budget Service.
    Welcome, Mr. Cason. Please proceed. Welcome to the 
witnesses.

   STATEMENT OF JAMES E. CASON, ASSOCIATE DEPUTY SECRETARY, 
 DEPARTMENT OF THE INTERIOR, ACCOMPANIED BY KEVIN SKENANDORE, 
      ACTING DIRECTOR, OFFICE OF INDIAN EDUCATION PROGRAMS

    Mr. Cason. Thank you, Mr. Chairman.
    I would like to take just a second and let Kevin introduce 
himself and tell a little bit about him. This is his first 
opportunity to testify in front of the Senate. He is currently 
the acting director of Indian Education.
    The Chairman. Welcome.
    Mr. Skenandore. Thank you, Mr. Chairman, members of the 
committee. Just a quick introduction. My name is Kevin 
Skenandore. I am a third generation Bureau of Indian Affairs 
[BIA] employee. My grandfather, Eli, was a carpenter. My father 
was an administrative officer; 30 years ago, I went to the 
Intermountain Intertribal School to take a look at their 
school, and I walked out with a job as a door maid. I worked 
through our system in 30 years. I bring that perspective. It is 
an honor for me to testify and to share the activities that are 
currently taking place in the Office of Indian Education 
Programs.
    I do think we have some interesting information that you 
would like to hear about what we are doing in our Reading First 
programs, our FACE programs, and some of the programs that are 
identified in our testimony.
    Thank you.
    The Chairman. Thank you very much.
    Mr. Cason. Good morning, Mr. Chairman and members of the 
committee. My name is Jim Cason. I am the associate deputy 
secretary of the Department of the Interior, exercising the 
responsibilities of the assistant secretary for Indian Affairs. 
I am pleased to be here to speak on behalf of the department 
and our Indian education programs.
    With me, as you know, is Kevin Skenandore, who is currently 
the acting director of the Office of Indian Education Programs 
[OIEP] until Tom Dowd joins us as the director of OIEP on June 
11. Kevin comes from the field, as you know, and he is the 
education line officer at Fort Apache. He has been instrumental 
in helping us design the management structures to improve our 
Indian education program.
    As indicated in previous testimony, a comprehensive review 
of the BIA educational system was conducted with a 
determination that several changes needed to be made in order 
to improve the effectiveness of our educational services and 
programs provided by our BIA-funded school system, and in order 
to ensure that no child was left behind.
    Based on this comprehensive review, it was clear to me that 
we needed to make some major changes in the way that we 
structured our OIEP leadership. The overall objective of our 
improved management structures changed the current 
organizational structure to reflect today's educational 
policies and the critical emphasis on improving student 
academic achievement, to reduce the span of control at the 
director and deputy director level, and to improve 
accountability. The improved management structure will provide 
some enhanced senior leadership and accountability in BIA 
education programs.
    Basically, what is involved there is to add a senior level 
of leadership in the program. Right now, there is basically 
none. And then to stabilize our education line officer layer, 
and that is the closest to the field management structure in 
the program.
    In response to the changing management responsibilities, 
OIEP worked with tribes and tribal school boards to develop the 
Program Improvement and Accountability Plan [PIAP] to improve 
the effectiveness of education services provided in bureau-
funded school systems. The PIAP is basically an MBO process 
where we lay out clearly the goals, objectives, tasks, and sub-
tasks and make assignments and put them on a schedule so that 
we can actually very deliberately pursue improvements in the 
program.
    The purpose of the PIAP is to structure OIEP's approach to 
meeting six critical educational objectives. Objective 1, is to 
achieve adequate yearly progress at all BIA-funded schools. 
Objective 2, is ensure safe and secure schools. Objective 3, is 
provide free and appropriate public education for all eligible 
students. Objective 4, is improve administrative organizational 
management capability. Objective 5, is improve program 
financial accountability. And then objective 6, is improve 
communications.
    Overall, our intentions are to provide improved 
communications and coordination between all of the parties who 
must contribute to the success of our Indian education 
programs. The improved management structure is intended to 
improve the management accountability of the education program. 
I firmly believe that the implementation of the improved 
management structure at OIEP, and the final transition in the 
fall of the opportunity for change and improvement and 
accountability in BIA's Indian education programs has begun.
    I am confident that with the changes, the enhancement of 
academic achievement in Indian students will take place. We are 
looking forward to working with the Department of Education, 
the tribes, and this committee on Indian education.
    Thank you for the opportunity to be here today to testify 
on these important issues. I would be happy to answer any 
questions you have.
    [Prepared statement of Mr. Cason appears in appendix.]
    The Chairman. Thank you very much, Mr. Cason. It is good to 
have you back.
    Mr. Cason. Thank you.
    The Chairman. Ms. Marburger, welcome to the committee.

 STATEMENT OF DARLA MARBURGER, DEPUTY ASSISTANT SECRETARY FOR 
     POLICY, OFFICE OF ELEMENTARY AND SECONDARY EDUCATION, 
   DEPARTMENT OF EDUCATION, ACCOMPANIED BY CATHIE CAROTHERS, 
 ACTING DIRECTOR OF THE OFFICE OF INDIAN EDUCATION; AND THOMAS 
    CORWIN, DIRECTOR, DIVISION OF ELEMENTARY, SECONDARY AND 
              VOCATIONAL ANALYSIS, BUDGET SERVICE

    Ms. Marburger. Thank you.
    Mr. Chairman and members, on behalf of Secretary Spellings, 
let me thank you for this opportunity to appear before you and 
to discuss the current status of Indian education. My name is 
Darla Marburger. I am the deputy assistant secretary for policy 
in the Office of Elementary and Secondary Education. I am 
joined today by Cathie Carothers, the acting director of our 
Office of Indian Education and Thomas Corwin, the director of 
the Division of Elementary, Secondary and Vocational Analysis, 
in our Budget Service.
    The Chairman. Welcome to both.
    Ms. Marburger. Your request for the department to testify 
on the matter of Indian education is very timely, with this 
week's announcements from the department's National Center for 
Education Statistics. We released the first report of the 
National Indian Education Study or NIES. This report contains 
new information for us on the educational progress of Indian 
students relative to that of students of other major student 
populations.
    Today I would like to share briefly with you the findings 
of that study and some specific steps that we are taking to 
improve the academic achievement of American Indian and Alaska 
Native students.
    First, I would like to point out that the National Indian 
Education Study is a two-part study to provide information on 
the condition of American Indian and Alaska Native education. 
This information can then be used by educational agencies, 
schools, parents, and others to develop education programs to 
improve the educational performance of Alaska Native and 
American Indian students.
    The first part of the study, which was just released this 
week, reports results from the department's over-sampling of 
American Indian students on the 2005 National Assessment of 
Educational Progress [NAEP]. This was intended to generate 
adequate representation of Indian students in the NAEP. Without 
that, our sample is really too small to draw conclusive 
results.
    The study provides us with the most reliable and complete 
data on Indian students' performance at the national level in 
reading and mathematics to date. It includes students from 
public schools, private schools, Department of Defense schools, 
and BIA schools.
    The second part of the study, which will be completed and 
released this fall, consists of an in-depth survey that gathers 
information from American Indian and Alaska Native students and 
their teachers, and it covers demographic factors, school 
culture and climate, the use of traditional language and 
culture in the home, and teacher qualifications.
    The results of part one of the study allow us to compare 
the academic achievement of Indian students to other students 
and to examine the achievement of these students over time and 
by region.
    Data from the 2005 NAEP reading and mathematics show a 
consistent pattern of achievement results for American Indian 
and Alaska Native students. While comparisons between Indian 
students and other students show that Indian students tend to 
score lower than students in general, comparisons among racial 
and ethnic sub-groups show that Indian students generally 
achieved at a level comparable to that of Hispanic students, 
and somewhat above the level for African American students. The 
performance of all three of these sub-groups tends to trail 
that of white and Asian American-Pacific Islander students.
    Our data also showed a small increase in the reading and 
mathematics achievement of Indian students between the 2003 and 
2005 NAEP. While this is encouraging, we believe that most of 
these improvements are not statistically significant.
    Other analyses document the continued achievement gap 
between Indian students and other students. The 2005 NAEP 
reading data showed that among students who are eligible for 
free and reduced price lunches, Indian students scored lower on 
average than all other students who were eligible for this 
benefit.
    I should mention as well that the study allows us to look 
at performance by region in the Nation. The study compared 
Indian student performance in three different types of 
locations: Central city, urban fringe or large town, and rural 
or small town. Those data showed that at grade four, Indian 
students in central city locations and in urban fringe or large 
town locations scored higher in reading and math on average 
than their Indian counterparts in rural or small town settings. 
We had similar results at the eighth-grade level in 
mathematics.
    This is significant in comparison to our non-Indian 
students. In those cases, reading performance was higher in 
urban fringe or large town locations and rural or small town 
locations than in central cities.
    The study provides comparisons in Indian student 
performance across five national regions, as well as a picture 
of Indian student achievement at the State level for seven 
States, which have at least 5 percent of the State student 
population as Indian students. Almost 50 percent of Indian 
students in the Nation reside in those seven States, which 
happen to be Alaska, Arizona, Montana, New Mexico, North 
Dakota, Oklahoma, and South Dakota.
    The data allows us to see these comparisons. For example, 
they showed that Indian students in the north central region 
had a higher average score than Indian students in the Nation 
in both fourth-and eight-grade reading, and that, for example, 
Indian students in Oklahoma had a higher average score than 
Indian students in the Nation in both fourth-grade and eighth-
grade reading.
    There are greater details to the study and also greater 
details in the steps that we are taking to improve student 
education, but it will be submitted in the official written 
testimony.
    At this time, my colleagues and I will be happy to answer 
any questions you may have.
    [Prepared statement of Ms. Marburger appears in appendix.]
    The Chairman. Thank you very much, Ms. Marburger. I read 
your written statement last night and I appreciate it. Both 
written statements will be made part of the record.
    What is the degree of coordination between you and the BIA, 
in your view?
    Ms. Marburger. We have really taken steps to increase the 
level of coordination, especially in the past year. We are 
having monthly conference calls and are in the midst right now 
of planning a technical assistance conference that we expect 
will take place this fall.
    That technical assistance conference has included 
additional planning where we are together working on what 
content will be covered and what is most needed by the BIA 
schools.
    The Chairman. If you regard the level of Indian education 
where I talk about it in my opening statement and a recent 
report, it seems to me that this is a squeaky wheel. I would 
urge you to make it a pretty high priority.
    I understand that Native Americans are a small percentage 
of students throughout America and you have large 
responsibilities, but where they are ranking by almost any 
determinant, they need a lot of attention and help.
    Something that puzzled me a bit about the NAEP report. It 
shows that fourth-grade Indian students in rural areas and 
small town locations did worse in reading and math than those 
in central city or urban fringe areas. You point out that this 
is different than the pattern for non-Indian students, who 
scored lowest in central city locations. How do you explain 
this anomaly?
    Ms. Marburger. I think part two of our study will help us 
with that because it is going to give us more specific 
information regarding educators. I do have some ideas.
    The Chairman. Give me one.
    Ms. Marburger. I think a lot of it has to do with the 
quality of the preparation of our educators in those rural 
areas and the quality of professional development in those 
areas.
    The Chairman. In other words, what you are saying is they 
have difficulty recruiting teachers for BIA schools? 
Translation?
    Ms. Marburger. All of our rural schools have that challenge 
in general.
    The Chairman. Do you want to say something, sir?
    Mr. Corwin. Just to point out, most of the rural schools 
that are educating Indians are not in the BIA system. But out 
on the reservation or areas around reservations, those are very 
challenging environments in which to produce a quality 
education.
    The Chairman. There are challenging environments in the 
inner cities, too.
    Mr. Corwin. Yes; but I think what we might tease out, just 
to guess about these new data, is that in the Native American 
context the rural areas may provide some particular challenges 
that we are not finding in other areas. It is new data to us. 
We clearly have to take a more careful look at it.
    The Chairman. Well, take a more careful look at it and 
report to us as soon as you finish the careful look. I think it 
is an issue that we need to try to pay more attention to.
    Mr. Cason, as you know, this committee, thanks to the 
leadership of Senator Dorgan, has really been concerned about 
this youth suicide issue. What are you doing on that issue?
    Mr. Cason. Mr. Chairman, we are also very concerned about 
it. We have been coupling together our law enforcement program. 
We are scheduled to meet with the IHS Director, Dr. Grim, this 
afternoon to talk about that.
    What we are trying to do is take a look at the causal 
factors that might lead to suicide, particularly in our 
education system, and then in the broader Indian community, and 
looking to identify causal factors and looking at identifying 
what we can do about it.
    I think, Mr. Chairman, it is reasonably fair to say that 
there are some pretty difficult conditions on a lot of Indian 
reservations, high unemployment, lack of infrastructure, lack 
of jobs, general economic poor conditions that lead to suicides 
at a higher rate.
    The Chairman. I am sorry for interrupting, but I agree with 
everything you say, but that has always been the case. Now we 
are seeing an increase in youth suicide. Go ahead.
    Mr. Cason. That is fine. I was basically just saying that 
we do recognize the same thing and we are looking into what 
might be possible causal factors. There has been a long term 
situation on Indian reservations that is conducive to a high 
rate of suicide, and we are seeing if there is any incremental 
events. It hasn't come to my attention yet that there is an 
incremental event, but we are looking.
    The Chairman. The indicators we have is it is on the rise. 
One of the things I want you to, and I think it is obvious, but 
one of the things I think you ought to look at is this 
connection between youth suicide on Indian reservations and the 
increased proliferation of methamphetamines.
    Mr. Cason. That is one of the causal factors we are looking 
at.
    The Chairman. All right. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.
    Ms. Marburger, you have given us the description of the 
reports, the two part study. I have read through this. You 
indicate that Indian education is struggling in some areas. You 
have just described to Senator McCain some issues with respect 
to rural schools. The report seems to me to say that young 
Indian students are lagging behind all students generally in 
achievement. Is that correct?
    Ms. Marburger. That is correct.
    Senator Dorgan. And they are, however, generally on a par 
with students from other ethnic groups, perhaps who are living 
in areas of greater poverty in this country. Is that also 
correct?
    Ms. Marburger. Yes, sir; at the same level, and in some 
cases above.
    Senator Dorgan. Mr. Cason, you have seen all the studies. 
In fact, I had the GAO do an investigation of the condition of 
Indian schools, particularly BIA-owned schools. They are 
generally in tougher shape, less good repair than other schools 
across the country. Do you feel that that has an impact on 
Indian education and is contributing at least in some part to 
these lower scores?
    Mr. Cason. Yes.
    Senator Dorgan. And what is being done about that? I ask 
you the question with respect to BIA schools, but I recognize 
that the gentleman, what is your name, sir?
    Mr. Corwin. Tom Corwin.
    Senator Dorgan. His comment about other schools that are 
not BIA, but nonetheless rural schools with predominant Indian 
students living near reservations, have very little property 
base, and therefore not much of a funding base for the schools. 
I recognize those schools are also in trouble. I have been in 
schools with 150 kids, 1 water fountain and 2 bathrooms. The 
kids are sitting in classrooms with desks 1 inch apart, a 
building that is 100 years old, portions of it condemned.
    I have seen these schools and you ask yourself, is a little 
kid, a third or fourth grade kid in that school getting the 
same opportunity for education than a kid is getting in a 
shining new elementary school in another area? The answer is 
no.
    So what are we doing about this? We know the problem 
exists. We have known that now for some years. What are we 
doing about it?
    Mr. Cason. Well, Senator, as you know from other testimony 
we made in the context of appropriations, our Indian education 
system contains almost 2,000 buildings of one sort or another, 
associated with 184 schools or dormitory facilities. If you 
take a look at the 2,000 buildings we have a pretty wide range 
of condition of them. Some of them are newly built and in very 
nice condition. Some of them are very old and in decrepit 
condition.
    Over the course of the last 5 years, the Administration 
with the support of Congress has basically invested about $1.5 
billion in renovating the system. So there has been material 
improvement over time for the system as a whole. However, there 
is still need that has not been fulfilled yet and we still do 
have a number of our buildings, somewhere on the order of 30 
percent, that are still in pretty poor condition and that 
continue to need improvement.
    Senator Dorgan. Mr. Cason, do you have an evaluation of 
what kind of investment is needed to bring BIA-owned schools up 
to par? And if so what that would take year by year? And what 
percentage of that we are now meeting with the President's 
budget request?
    Mr. Cason. I don't have a specific figure, Senator. I know 
that we have invested about $1.5 billion and we are on the 
order of about 70 percent of the schools and facilities are at 
good or better condition. I have not placed an estimate on what 
it takes to get the other one-third.
    Senator Dorgan. Shouldn't we do that, though?
    Mr. Cason. That sounds reasonable.
    Senator Dorgan. A $1.5 billion expenditure, I understand 
that number. What I don't understand is what is not being done.
    Mr. Cason. Okay. We would be happy to look into that and 
get you an answer.
    Senator Dorgan. If we had the money or if this was 
considered a priority, for example, a bigger priority than 
repealing the estate tax, just as an example, if we considered 
this a priority, what kind of funding would be required to 
bring these schools up to par in what period of time? How much 
per year are we underfunding that?
    So I think the committee would benefit from that and 
understand, then, what the shortfall is.
    One other question. There is a great deal of unhappiness as 
you know in Indian country about the BIA's proposal to realign 
its education functions. That reorganization was something that 
was a prominent part of the discussion at the listening session 
I held in Fort Yates. Can you tell us what you are doing and 
why you are doing it? I understand an injunction has been 
filed, I believe it was yesterday, by some of the tribes in the 
northern Great Plains.
    Mr. Cason. Yes.
    Senator Dorgan. What is it that has persuaded you to do 
this? Why are you doing it and what will you accomplish?
    Mr. Cason. Okay. That is a great question, Senator. I would 
be happy to talk about it.
    Overall, what we did in looking at the Indian education 
program is look at all the various components of it. One of the 
issues is management. I would like to start off this answer 
with, there is no one single bullet to address all of the ills 
that we have in our Indian education program to achieve 
success.
    Right now, as an overall matter, two-thirds of our schools 
are failing to meet AYP and that is clear that that is not the 
kind of success rate that Congress or the Administration will 
find acceptable. So we started looking at all of the components 
of the Indian education program to figure out what needed to be 
done.
    Part of what we have done is produce the PIAP, the 
Improvement Accountability Plan and an MBO for making 
improvements. One of the elements we looked at was management 
structure. In looking at Indian education, one of the things 
that was abundantly clear is there was a lack of senior 
management attention. We have about 5,000 employees in this 
organization, and we had a total of 1 sitting senior executive. 
If you look at the Department of Energy, they have about 1 
senior executive for every 30 employees. In the Department of 
the Interior, as an average, we have 1 for every 250 employees.
    So on average, I was about 20 senior executives short in 
the Indian education program. So what we did is went to the 
Secretary and to the Office of Personnel Management and asked 
for seven new SESers as opposed to 20 to at least bring some 
senor management help into this program.
    We also looked at a director's position when shopping for a 
new director. We have selected a person, Tom Dowd. He will be 
in in about 2 weeks to start his leadership in the program. 
That was an important element.
    On the Education Line Officer layer, which is associated 
with the lawsuit you just talked about and the complaints that 
you received in the Dakotas, we have had extensive consultation 
with Indian tribes in the Dakotas. Their consultation has gone 
over the period of the last couple of years before we end up 
making decisions about what to do.
    On that education line officer layer, basically what we did 
is looked at the number of dollars we thought we had available 
for that layer; looked at what we needed across the country; 
basically made decisions about relative staffing and workload 
associated for each ELO office and what they needed for 
critical mass of technical skills in an office, and then 
apportioned in a very objective, rational way how much 
resources we had available for each set of schools we had 
across the country.
    Where we ended up is we originally had 22 education line 
officers with about 100 staff people. We ended up with 19 
education line offices with about 100 people, and what we are 
looking to do is reconfigure somewhat, and in my opinion it is 
not a large reconfiguring, but reconfigure somewhat the 
location fo the ELOs, what their tasks are. We are upgrading 
the staff to get higher level people with more knowledge and 
more experience into the system. We are moving toward the 
direction of having people that can provide technical 
assistance, rather than staff.
    So that is basically what we are doing.
    Senator Dorgan. Mr. Cason, that was everything I wanted to 
know and more, a long description of what I am sure is 
something you have put a lot of time on. I have to tell you 
that I am a little bit perplexed when I hear that what we need 
to fix the system is more senior executive management staffing. 
I mean, in fact I think there is probably an inverse 
relationship between effectiveness on the one hand and senior 
executives on the other in the Federal Government, just because 
of the way bureaucracy works.
    But having said all that, the reason I asked the question 
is the concern about the line education function and what seems 
to me to be a constant and an inevitable desire to centralize, 
rather than decentralize. Particularly in our area and I am 
sure in other areas as well, as they centralize more and more 
of these things and more and more of these functions, you get 
farther away from the role of educating.
    But I will send you a list of questions, if I might, about 
this because I am curious about its impact and its effect. The 
tribes tell me there was precious little consultation, but I 
will ask you some questions about that as well.
    Mr. Cason. We would be happy to answer all those questions.
    Senator Dorgan. At the end of the day, the chairman and I 
are interested in one thing: How do you effectively deliver the 
education that is needed by the students who desperately want 
to be educated out there across the country? We have a 
responsibility. We run schools on military reservations. I go 
to those schools on air bases. We run those schools. Those 
schools are in good shape by and large, and we run them well.
    And then we have responsibility for another set of schools, 
the BIA schools, and I am distressed that years after the GAO 
has said that those schools are in miserable shape, by and 
large, one-third of them are in miserable shape, that we have 
not really done the things we should have done as trustees and 
as those responsible for the education of these children. So I 
hope we can do more and accomplish more.
    Mr. Chairman, as I indicated, I have to go to the Energy 
Committee for a hearing that I had requested. I apologize that 
I have to leave, but thank you for calling this hearing.
    The Chairman. Thank you, Senator Dorgan.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I am sorry that I missed the testimony here this morning. I 
was actually wearing my mother hat and taking care of my son's 
enrollment for next year and buying the books.
    The Chairman. A worthy cause.
    Senator Murkowski. A worthy cause.
    Ms. Marburger, it is good to see you again. You probably 
know where I am going to go with my question. I am going to 
again repeat my invitation that the Secretary of Education, 
Secretary Spellings, come to Alaska. We have in the State, we 
have the highest proportion of indigenous people. As compared 
to any other State out there, our statistics as they relate to 
achievement are not something to be proud of right now. We know 
we have some challenges.
    We also know that we have made some successes in certain 
areas when given the flexibility. I know that you have had an 
opportunity to come to the State and experience first hand some 
of the challenges that we face out in the more rural schools in 
our villages. Again, I would repeat that invitation to the 
Secretary through you to take the time to come up and see what 
we are dealing with.
    I can't stress enough the importance of that field trip. We 
will continue to try to work with her schedule, but I would 
like you to personally deliver that message back to her.
    The question that I have for you this morning is how we can 
within what we have before us, with No Child Left Behind, how 
we can continue what I believe are the very important cultural 
immersion language programs that we have up north for our Yupik 
and Inupiaq students.
    We are seeing great success in some of these models in 
terms of capturing the children's attention for education. We 
are making education more relevant, I believe, through use of 
their cultural heritage languages, but No Child Left Behind put 
some limitations on that.
    I would like to hear your perspective in terms of what we 
can do in the State to work with the department, work with the 
Alaska Department of Education, to still boost those academic 
scores and meet the standards so that we know that our kids out 
in the rural villages are getting the education that they need, 
while at the same time being able to focus through their Native 
cultural languages. Can you speak to that for just 1 moment?
    Ms. Marburger. Sure, I would be happy to. In the area of 
working with the Native languages and being able to still at 
the same time monitor student achievement of the academic 
content standards, there needs to be some way of measuring that 
achievement. We feel through our conversations with the various 
State officials that the best way to do that at this time, 
given the various tools available, is via accommodations to the 
regular test since there is not an assessment currently 
available in the Native language.
    While that is an option, I understand that is one that the 
State has not chosen to pursue developing such an assessment, 
which is difficult whenever you don't have a lot of the tools 
available to be able to develop that assessment.
    So the next option available to us really is working on 
using accommodations and making sure that your teachers know 
those accommodations and are teaching with those accommodations 
for purposes of assessing. Those accommodations need to be done 
in a manner that doesn't invalidate the assessments of those 
students.
    We are more than happy to have conversations and provide 
technical assistance in that area, to the State.
    Senator Murkowski. How can we facilitate that? Is that 
something where somebody from the department here in Washington 
needs to come up to Alaska and work with the State Department 
of Education, work with the teachers out in the areas. How do 
they know what it is that they can do?
    Ms. Marburger. I would need to be something that would be 
initiated by the State Department of Education. They would 
request the assistance from us. We would be happy to come and 
to provide that, and to work with them on being able to more 
thoroughly address the issue of assessing students who are 
being instructed in their Native language.
    Senator Murkowski. Are there other Native immersion schools 
within the BIA-administered schools, where you are trying to 
incorporate the immersion language, Native cultural languages 
as well?
    Ms. Marburger. I will defer to my colleagues from BIA for 
that answer.
    Mr. Skenandore. There are. There is one particularly in 
Navajo, Rough Rock Demonstration School.
    Senator Murkowski. Can you tell me how that school is doing 
in terms of meeting the academic standards that have been put 
out?
    Mr. Skenandore. We can extract that information and submit 
that to you. As a matter of fact, the most recent annual report 
from the school will be due June 2.
    Senator Murkowski. I would look forward to that. One of the 
challenges that I think we have faced with our Alaska Native 
students is this educational relevance. How is this geometry 
lesson, how does it relate to the world of subsistence hunting 
and fishing? For a lot of these kids, it is not making sense. 
It is making sense when they have an opportunity to discuss 
these concepts in their heritage languages and utilize them in 
their day to day world.
    So I would be curious to know if any other pilot projects 
out there are working and perhaps what tools and techniques 
they are utilizing.
    Mr. Skenandore. Could I add an additional response to that, 
Mr. Chairman?
    The Chairman. Sure.
    Mr. Skenandore. We just completed a study called Improving 
the Performance of Indian Schools. The study was just completed 
yesterday. It ranked our top five achieving schools, our lowest 
five, and also the Hopi schools, which all made adequate yearly 
progress. It speaks to your concerns, Senator Murkowski. We can 
deliver that product to you. It just became available today.
    Senator Murkowski. Great. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I thank the witnesses. We look forward to continuing our 
work with you on this very important issue. Thank you for 
appearing today.
    Panel 2 is Ryan Wilson, who is the president of the 
National Indian Education Association; Ivan Small, who is the 
board secretary of the National Association of Federally 
Impacted Schools, and he is also the Superintendent of the Fort 
Peck School District in Poplar, Montana; and Beth Kirsch, who 
is a Series Producer Between the Lions, WGBH, Boston, MA. Ms. 
Kirsch is accompanied by Bernie Teba, who is the Native 
American Liaison, New Mexico Children, Youth and Families 
Department in Santa Fe, NM. And David Gipp, who is the 
president of the United Tribes Technical College in Bismarck, 
ND.
    I would like to mention to the witnesses that, with my 
apologies, we are about to have a vote. Senator Murkowski and I 
will have to go in a few minutes. In fact, Senator Murkowski, 
maybe if you would want to go vote and then come back and take 
over for me once the vote starts. Would that be agreeable?
    I thank you very much. That way we won't have to interrupt 
the hearing.
    Mr. Wilson, welcome and thank you for your good work, and 
thank you for being here.

STATEMENT OF RYAN WILSON, PRESIDENT, NATIONAL INDIAN EDUCATION 
                          ASSOCIATION

    Mr. Wilson. Thank you, Chairman McCain. Good morning to 
you.
    My written testimony provides a comprehensive overview of 
the issues that are affecting Indian education. I would also 
like to ask your permission to submit some other documents for 
the record as well.
    The Chairman. Without objection, those documents will be 
made part of the record, and all the written testimony will be 
made part of the record, of all the witnesses. Thank you.
    Mr. Wilson. Thank you. I appreciate that.
    [Referenced documents appear in Mr. Wilson's prepared 
statement in the appendix.]
    Mr. Wilson. I would like to give you and the committee a 
panoramic overview briefly in these brief statements. Senator 
Murkowski expressed concern over immersion programs, as has 
Senator Dorgan. Language revitalization is dear to our hearts.
    The National Congress of American Indians, as well as the 
National Indian Education Association, has made it our number 
one priority in education this year for the simple fact that 
our window of opportunity is rapidly closing. At lightning 
speed, we are losing our repository of language speakers, of 
fluent speakers, and once that is gone, there will never be an 
ability again to reclaim or revitalize our languages.
    As I said, at lightning speed we are losing them. 
Meanwhile, at horse and buggy pace, we are making attempts to 
reclaim them that are just not trading any kind of impact. We 
believe through our research, through scientifically based 
research and best practices, that not only does language 
revitalization engender the sense of cultural identity and 
resilience in our young people, but it also elevates their 
academic success. We want to express a little bit about that 
today, Mr. Chairman.
    I want to take you on a mental flight, so to speak, maybe 
starting in Alaska. As she said, the Inupiaq people and their 
immersion programs. We are so very proud of what they are doing 
over there as well. We also have a school named Ya Ne Dah Ah. 
It is run by the Athabascan people in the village of 
Chickaloon. These students have graduated out of eighth grade 
over there and they are performing substantially better than 
all of their counterparts that are going to school just 60 
miles south of them in the city of Anchorage, where they are 
receiving what we consider mainstream education.
    Going on down to your great State of Arizona, we look at 
the Rough Rock Community School there, which was the first 
contracted school by a tribe in America here, a 638. Our 
colleague, Mr. Skinadore from the BIA, will get you that data, 
but I could tell you now those students are doing better than 
their Navajo counterparts as well on those mainstream tests.
    As is the Navajo students that are Fort Defiance in the 
immersion school there, which is actually a public school on 
Navajo land. If we can go on north up to Browning, MT, our 
great leader in this movement of revitalization, Darrell Kipp 
and the Piegan Institute has also sent many, many students on 
into Browning school system, the Browning High School over 
there, and they as well have achieved substantially better than 
their counterparts, the Blackfeet students that are going 
there.
    Let's go on over to the great State of New York, the 
Akwesasne Freedom School, which recently won a major award by 
Harvard University, Mr. Chairman, just for the incredible 
impact that they have made on their community. We have a young 
girl there that we are also very proud of, named Curry Ramson, 
who just received a Gates Millennium scholarship and will be 
attending college as well.
    So not only are these schools being acknowledged by some of 
the elite universities across America, also some of the most 
innovative funders in the philanthropy world have taken a great 
interest in them as well. What they have found is that this is 
a great commitment and this is a great investment.
    What we have seen throughout Indian country is that these 
innovative approaches are outpacing that which has been 
achieved by the Department of Education and the BIA. What we 
would like to see is the Congress take hold of this and invest 
and really make a substantial impact on these schools.
    We are so very pleased that Senator Akaka introduced S. 
2674, the Native American Language Act Amendments. We would 
also like to thank the cosponsors of that, Senator Inouye, 
Senator Baucus, Senator Johnson, and of course Senator Dorgan. 
We believe in 1992 when Congress created that Native American 
Language Act and enacted it, it ushered in joyous daybreak to a 
long, long dark night of apathy when it came to revitalizing 
these languages. This particular bill, we ask for a markup as 
soon as possible and we also hope for swift passage of it 
because we believe it will really do something and etch across 
the pages of history in Indian education really a new day.
    It is going to give us the tools that need to not only 
carry on our sacred heritage and our way of life, but elevate 
academic achievement. Right now, Senator, all the education 
research, and you have just seen it by the report that was 
released, and you are going to see it by the BIA report. I 
haven't reviewed that yet, but when it comes out you are going 
to see what we have been doing isn't working. It has been a 
commitment to mediocrity.
    We want a commitment to excellence and we believe this is 
the way forward on that.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Wilson appears in appendix.]
    The Chairman. It hasn't been working for a long time, has 
it?
    Mr. Wilson. Absolutely, it hasn't.
    The Chairman. Thank you, sir.
    Mr. Small, welcome.

STATEMENT OF IVAN SMALL, BOARD SECRETARY, NATIONAL ASSOCIATION 
 OF FEDERALLY IMPACTED SCHOOLS, AND SUPERINTENDENT, FORT PECK 
                  SCHOOL DISTRICT, POPLAR, MT

    Mr. Small. Thank you.
    Good morning, Mr. Chairman and members of the committee. My 
name is Ivan Small and I am the Superintendent of the Poplar 
Public School District in Poplar, MT. I thank the committee for 
inviting me to testify, and I have submitted my complete 
testimony to the committee for consideration.
    I currently serve as the Secretary of the National 
Association of Federally Impacted Schools. NAFIS represents the 
needs of children in Federally connected school districts. I 
also represent over 120,000 Native American children as 
president of the National Indian Impacted Schools Association.
    My purpose is to share with you the issues faced by 
federally impacted public schools proudly serving 120,000 
American Indian children. The Impact Aid Program provides the 
lifeblood for public school districts that, like Poplar, have a 
high percentage of students who reside on land we cannot tax. 
Without impact aid funding, our district would not open its 
doors.
    Our students face four challenges: First, meeting the 
standards of No Child Left Behind; second, our overwhelming 
facility needs; third, the impact of State equalization; and 
fourth, the effect of the changing demographics of the Impact 
Aid Program.
    So how well are we helping the Indian child meet the 
challenges of No Child Left Behind? It is important to first 
note that, although the BIA school remains the most visible 
symbol of Indian education, 93 percent of American Indian 
students attend public or private schools.
    We are grateful today for the opportunity to give our 
children a voice. The Indian student's potential is not being 
realized. Though he develops cognitive skills similar to other 
children, he achieves below the national norm tests. In 
addition to generational poverty, geographical isolation, and a 
myriad of community problems, he often attends a rural school 
deficient in resources and unattractive to highly qualified 
teachers.
    Additionally, large numbers of Indian students alternate 
between BIA and public schools, much as military-dependent 
children alternate between the Department of Defense and public 
schools. The Department of Defense, at the insistence of 
Congress and with the support of many members of this 
committee, has made considerable progress toward addressing 
this issue. It is time we also establish a formal partnership 
between the public schools and the BIA schools serving the same 
children. This one Indian child concept will help the Indian 
child navigate two totally separate and different systems.
    Mr. Chairman, the second issue is the deplorable condition 
of many of our buildings, primarily due to a negligible tax 
base. Last year, the entire impact aid community--to protect 
basic impact aid funds--suggested to the House and Senate that 
they redistribute $27 million from construction to basic 
operations, barely maintaining a stable funding stream.
    Much like the Significant Facilities Report done by the 
Department of Defense in the late 1980's, called the Dole 
Report, a similar study of our facilities by the GAO would 
illustrate to this committee, Members of Congress, and the 
American public the stark reality our students face daily in 
their halls, cafeterias, playgrounds, and in their classrooms.
    Issue number three is equalization. Section 8009 of the 
Impact Aid Program allows a State to credit a district's impact 
aid payments against their State aid receipts. Currently, New 
Mexico, Alaska, and Kansas meet the section 8009 criteria. The 
problem, Mr. Chairman, is that in these States, equalization is 
more a matter of equalizing down, holding down State aid and 
penalizing our children, while equalized impact aid payments 
can keep tax rates down for shopping centers and golf courses.
    We hope that this committee, sometime before the 
reauthorization of the Elementary and Secondary Education Act, 
would hold at least one hearing on this subject.
    Finally, we are deeply concerned about the changing 
demographics of the Impact Aid Program. Mr. Chairman, all 1,400 
impact aid school districts receive money from the same pool. 
Thus, when changes occur to one category of districts, causing 
a drain on program resources, all districts are affected.
    As the nature of the U.S. military quickly changes, the 
demographics of the Impact Aid Program will change 
dramatically.
    Due to three ongoing Department of Defense initiatives, 
impact aid will be forced to absorb tens of thousands of 
military-dependent children, a fact ignored by the 
Administration's fiscal year 2007 budget. One such initiative 
is global re-basing. Over 70,000 uniformed service personnel 
will return stateside from bases overseas, with an estimated 
32,000 to 42,000 school-age children. Impact aid will have to 
absorb the cost of these children, reducing basic support 
payments to all.
    Because of these initiatives, NAFIS projects an annual 
increase of $36 million to $46 million for five years just to 
maintain basic payments. Mr. Chairman, this will penalize all 
federally impacted districts. Our challenges are sizable and 
will require significant efforts by everyone. We can honor our 
commitment to our children by providing them the highest 
quality education possible, and we at NAFIS and NIISA are 
committed to this goal.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Small appears in appendix.]
    The Chairman. Thank you very much.
    There are only 3 minutes left to go in the vote, so Senator 
Murkowski has been able to go vote. So we will have to come 
back, so we will have a very brief recess. I know that she is 
on her way back, and then we will go to Ms. Kirsch.
    Thank you for being here. Thank you for your testimony. She 
should be here in just 1 minute.
    The committee stands in recess for a few minutes until the 
arrival of the Senator from Alaska.
    [Recess.]
    Senator Murkowski [Presiding]. All right. We will be back 
on record.
    I again apologize for the jack in the box routine that we 
do around here. I know that so many of you come from relatively 
far distances and I know you have a lot to say. Please do know 
that we do listen, sometimes in not the most consecutive order, 
but we do appreciate your being here.
    I understand, Mr. Small, that you had finished your 
testimony.
    Mr. Small. Yes.
    Senator Murkowski. With that, then we would go to Ms. 
Kirsch. Welcome.

 STATEMENT OF BETH KIRSCH, SERIES PRODUCER--BETWEEN THE LIONS, 
   WGBH BOSTON, ACCOMPANIED BY BERNIE TEBA, NATIVE AMERICAN 
  LIAISON, NEW MEXICO CHILDREN, YOUTH AND FAMILIES DEPARTMENT

    Ms. Kirsch. My name is Beth Kirsch, and I thank you for the 
opportunity to speak before the committee today about the 
American Indian Head Start Literacy Initiative that we have 
done with Between the Lions. I am the Series Producer for 
Between the Lions, which is an award-winning PBS children's 
series that was created specifically to help children learn to 
read.
    In addition to broadcasting the series, we have a very 
strong commitment to reaching those children who are most at 
risk for reading failure. We began our efforts in Mississippi, 
which as many of you know, has among the lowest literacy rates 
in the country. We are now working with American Indian tribes 
in New Mexico and Montana.
    We decided to reach out to New Mexico because we saw a need 
based on reading scores, which you heard a bit about today. We 
also saw it as an opportunity to work with many different 
tribes, and we felt that would be ideal for creating a model 
that could then be offered to other tribes outside New Mexico.
    We also decided to focus our efforts on preschool because 
so many children enter kindergarten well behind their peers in 
vocabulary and letter knowledge, and even such basic concepts 
of how do you hold a book and know when to turn the pages and 
reading from left to right. When kids start out so far behind, 
it is just very, very hard for them to catch up.
    To start this project, we invited Head Start directors to 
an initial meeting in New Mexico, and there was great 
enthusiasm for what we hoped to do because they saw the 
importance of increasing literacy among their kids. They also 
expressed a very strong interest in helping to shape the 
materials that we planned to offer so that they would be 
culturally sensitive and would succeed in their classrooms.
    Eleven tribes agreed to participate. At the beginning of 
the project, we spent time with directors, with teachers and 
with cultural specialists from the tribes to get their input on 
the content and the approach of all the materials. At their 
suggestion, with our partner KNME, we created several new 
segments of Between the Lions that featured American Indian 
children, so that the kids would see themselves and their 
environment reflected in the materials that they would be using 
in their preschool centers.
    The tribes also gave us significant input on the research 
design and the measures, again so that they would be culturally 
relevant.
    What we provided to each Head Start classroom that 
participated was a set of three DVDs, which had 16 of our 
nationally broadcast shows edited specifically for preschool 
age children. We provided a DVD player. We provided a teacher's 
guide, which has extensive lessons that are also tried to 
Federal Head Start outcomes; a classroom set of 32 children's 
books. These books are just a sampling, but again, we made a 
focus on including authentic American Indian literature, 
stories set in the Southwest, as well as popular children's 
books.
    They also got a bin of classroom materials, which included 
alphabet strips, bins of letters, poems, songs, et cetera, and 
then we provided training and ongoing support throughout the 
school year.
    I want to just show a sample from the DVD segment. Each of 
the DVDs has Five to six of our edited shows. They can watch 
the whole episode. They can do scene by scene, so after they 
have watched a show, if they want to repeat a song or focus on 
a specific skill, they can do that. What I would like to show 
is one of the segments we filmed in New Mexico, which we filmed 
in the Cochiti and Ysleta Pueblos.
    [DVD presentation.]
    Ms. Kirsch. The project also has a research study as part 
of it. We will be announcing the full results in a meeting in 
New Mexico next week. What we have seen are very significant 
gains in key literacy areas, including letter knowledge, 
picture naming, which is a measure of oral language and 
vocabulary, and phonemic awareness, which is a very important 
foundational skill in literacy, how you blend the sounds 
together to make words.
    But perhaps the most promising funding, especially in 
contrast to some of the other dismal statistics we have heard 
earlier today, is that as a result of the project, the number 
of children at risk for reading failure based on a tool called 
the Get Ready to Read screener, decreased from 39 percent to 12 
percent, and the number of children scoring above average 
increased from 23 percent to 64 percent.
    We are interested in expanding these materials. Right now, 
we have 16 lessons. We would like to expand it to 32 for use in 
the full school year. We want to expand the use both in New 
Mexico and with tribes nationwide.
    The success of this project has benefitted greatly from the 
support of Native American leaders in the State, and the key 
person who helped make the project a success is Bernie Teba, so 
I would like to turn it over to Bernie Teba for a few remarks.
    [Prepared statement of Ms. Kirsch appears in appendix.]
    Mr. Teba. Thank you, Madam Chair.
    My name is Bernie Teba. I am the Native American Liaison 
for the New Mexico Children, Youth and Families Department. I 
have been working with tribes and tribal organizations for over 
20 years. I did submit written testimony for the record, so I 
am not going to repeat that, but the New Mexico No Child Left 
Behind data shows that American Indian children are at the 
bottom in terms of reading, math and science scores.
    I have seen the enthusiasm of kindergarten and first 
graders. Because they don't have literacy skills, they start 
falling behind and become frustrated, and either drop out or 
fall further behind. So I strongly believe that early English 
literacy intervention is a critically needed step in the 
education of our Indian children.
    Our data shows that this program does work. We provide the 
tools to a community-based program. Head Start is basically our 
flagship for early childhood development at the community 
level. So I strongly urge this Committee to provide the 
resources to continue programs like this and strengthen 
programs like this. So Head Start should be a priority, 
especially tribal Head Start, because again it is the first 
learning step for our Native American children.
    I would finally like to publicly thank Senator Domenici for 
his initial sponsorship of the appropriation that made this 
project possible, and also the communities that we are working 
with, the 11 tribes that we are working with. It is an 
evidence-based program and because I do work in the State of 
New Mexico, we have a pre-K program.
    This past legislative session, the legislature provided 150 
percent increase for pre-K funding. Unfortunately, none of our 
tribes submitted under pre-K, so that is one of the things that 
I will be working on. It is to get programs like this funded by 
State government. But it is a Federal trust responsibility, so 
I again urge the Committee to consider funding programs like 
this.
    Head Start is within the Department of Health and Human 
Services. I am not sure if the BIA or the Department of 
Education is talking to Head Start, but it is a critical 
component for education of our Indian children.
    Thank you.
    [Prepared statement of Mr. Teba appears in appendix.]
    Senator Murkowski. I will finally go to Dr. Gipp.

  STATEMENT OF DAVID GIPP, PRESIDENT, UNITED TRIBES TECHNICAL 
                            COLLEGE

    Mr. Gipp. Thank you, Madam Chair.
    I appreciate the opportunity to be here on behalf of tribal 
higher education and United Tribes Technical College, of 
course, in Bismarck, ND.
    I also want to commend our chair and our vice chairman, 
Senator Dorgan from North Dakota, for allowing us to be here.
    I will summarize my remarks and ask that our record 
statement be placed in the record, if that is at all possible.
    Senator Murkowski. The full statement will be included in 
the record.
    Mr. Gipp. Thank you very much.
    Let me focus, then, on some of the summary remarks that are 
in that testimony, and a lot of the statistics and data that I 
am going to talk about in general are in that testimony as 
well.
    I just want to point out that culturally appropriate higher 
education by and for American Indians and Alaska Natives really 
works. It is important that we make this a part of our policy 
in tribal higher education throughout America.
    It is deserving of the full support of Congress and the 
executive branch. Indian people and Alaska Natives today want 
quality, culturally appropriate higher education as never 
before. We are busy building that through the 35 different 
tribal colleges and universities that we have had since the 
early 1970's.
    United Tribes Technical College has been operating since 
1969. We are a campus-based institution that is on an old 
military fort. We have two early childhood centers and a K 
through 8 elementary school on that campus. We serve over 1,100 
students and we have grown about three times in the past 4 
years to those 1,100 students and 500 children.
    I look at this total number of students that we serve 
across America, the 35 different tribal colleges serving close 
to 35,000 students of the 180,000 or 175,000 American Indians 
that are attending various colleges and universities across the 
Nation.
    We know that we are the fastest growing population when it 
comes to this area in terms of service. It is very, very 
critical, then, that Congress takes a hard look at how we can 
be assuredly provided the resources to give those opportunities 
to our various kinds of students that are up and coming.
    Our college educated Indian population is contributing to 
our national and tribal economies as well. When I look at this 
kind of thing, we have many different kinds of programs, both 
at the certificate, the two year and the four year levels, as 
well as some graduate programs that are coming up through all 
of these institutions.
    It is very important to look at the 2000 census and see 
that the percentage of the Indian population that had college 
degrees was less than that of the national average. When you 
look at the 25 percent or 27 percent that have college degrees 
in the United States, we only see about 11.8 percent the Native 
Americans that have completed.
    And so it is very important that we deal with this 
unacceptable set of statistics. The tremendous growth of higher 
education has its price, and we know that the tribal colleges 
and universities are only funded at about 75 percent of the 
authorized amount in the Tribally Controlled Community College 
Assistance Act. In the case of United Tribes, we have been left 
out of the budget for four times, five times coming up with the 
upcoming fiscal year, and so it is the same case with the 
Crownpoint Institute of Technology.
    And yet we have the data and the statistics to show that we 
do a good job. We have 90 percent placement rates. We have 
about an 80-82 percent retention rate. We have good data and 
statistics to show and prove the Office of Management and 
Budget and the Department of the Interior that we are doing a 
great job when it comes to the challenges of meeting the 
educational needs of our students.
    This assistance is very, very vital for all of us. So we 
ask that the Congress take a hard look at what kind of policy 
needs to be in place, as well as the appropriate kinds of 
appropriations.
    I have attended just yesterday and the day before the 
National Indian Budget Task Force, or advisory board, that 
includes tribally elected officials and the BIA about things 
like the 2008 budget. I have attended these and I have met with 
the Office of Management and Budget. We know that we meet the 
data requirements that are part of what they call PART.
    We also heard that the BIA plans to cut higher education 
scholarships by 100 percent in the year 2008 in its upcoming 
plans. We know that they are going to cut higher education 
scholarships in fiscal year 2007. We know that they are not 
going to include United Tribes and Crownpoint in fiscal year 
2007.
    So we ask to assure that the Congress make sure that these 
funds are there if we are going to have any kind of viability 
for tribal students who attend any of the tribal colleges, as 
well as mainstream universities and colleges throughout the 
United States.
    We particularly want to point out the programs that are 
available not only through the BIA scholarships, but also 
through the Pell Grants, the Department of Labor's Workforce 
Investment Act, the Carl Perkins Programs under section 116 and 
117 of the Vocational Education Programs, as well as the TRIO 
Programs and the higher education programs enabled under the 
Higher Education Act that go through the Department of 
Education.
    We believe that we need to be a major part of what is going 
to be happening in 21st century learning when we talk about the 
need for better facilities, institutional financial stability, 
and the use of technology and the access to that technology for 
learning purposes. We know that the return on investment is 
about a 20 to 1 return when we talk about all of these kinds of 
things.
    We also would urge that Congress take a hard look at the 
Executive Order passed or put into place by President Bush. We 
believe that many of the Federal agencies that participate 
under the White House Executive order on Tribal Colleges and 
Universities needs to be better, better implemented. We believe 
that there are existing resources that do not need to have to 
cost additional dollars that could be done more efficiently. We 
urge that Congress urge the Administration to use these 
resources and these tools more effectively in dealing with 
Indian country.
    I want to thank you very much for the opportunity to be 
here, and we appreciate this time.
    [Prepared statement of Mr. Gipp appears in appendix.]
    Senator Murkowski. Thank you, Dr. Gipp, and thank you to 
all of the panelists that have joined us here this morning.
    I think the common theme, at least from those that I have 
heard from this morning and in reading the testimony of the 
other two gentlemen, it is all about how we make education 
relevant to our American Indian and our Alaska Native children, 
to encourage that learning so that they rise up through the 
academic ladder and hopefully ultimately in some of the 
colleges that are available to them.
    Mr. Wilson, I appreciate your being here and all the good, 
good work that you do on behalf of the National Indian 
Education Association. I am sorry that I missed your comments, 
particularly recognizing the efforts that we are making in 
Alaska with the immersion programs.
    I had an opportunity to go out to Chickaloon and go into a 
very small school, but an opportunity to talk with and meet the 
young students there who were, it was not a complete immersion 
program, but speaking in their Native cultural language, and an 
enthusiasm about school and about being there. You can tell 
when a child, particularly when they hit about fifth or sixth 
grade, if they are not enthused about school, it shows in their 
whole body. It shows in how they conduct themselves in the 
classroom.
    These kids were genuinely happy to be in school. There was 
a love for what they were doing that was just very transparent. 
I would agree with you that Congress does need to look at how 
we can facilitate such immersion programs, such language 
programs to get that love for learning across to the children.
    Ms. Kirsch, I so appreciate what you are doing at the early 
stage in preparing the children for school, kind of instilling 
in them the love for learning, but really to be ready to learn. 
I could not agree with you more that it is these programs that 
get the kids excited about what they are doing and comfortable 
with school, that are a predictor of how they are going to feel 
about school.
    We have good Head Start programs in Alaska. I had an 
opportunity to visit an Even Start program out in Hoonah, a 
small Native village down in Southeastern Alaska, where I 
learned that it is not enough to just deal with the, I guess 
you would call it the pre-literacy or the early learning 
literacy, but to help the parents with their literacy skills as 
well. Because what we were finding was that many of these 
parents could not read to their children.
    So we can encourage the children all we want to read at 
home, have your parents read, but if the parents are not 
literate themselves, so what I learned through this Even Start 
program was that if we can provide for the literacy for the 
adults to work with their children, it kind of empowers the 
kids, too, to be helping their parents, but it also helps them 
with economic opportunities and jobs.
    The question that I have for you, Ms. Kirsch, recognizing 
that up in Alaska we have literacy rates among our Alaska 
Native preschool children is very, very low right now. Do you 
have any plans with Between the Lions to work with Alaska Head 
Start directors to kind of replicate this program. Are you more 
situated down in the South/Southwest, or do you have 
opportunities elsewhere?
    Ms. Kirsch. Well, we went to New Mexico really as a pilot. 
Right now, we are very interested in working with other tribes. 
We started working with the Cree Tribe at the Rocky Boy 
Reservation in Montana. There is an American Indian Head Start 
Directors Conference in Washington, DC in June, and we are 
hosting a luncheon and inviting Head Start directors from those 
States that have large American Indian populations in Head 
Start.
    So we are very interested in working with other States. We 
feel now that we have had the research, we have a sense that 
this can really work and it makes a difference not just for the 
kids, but for the teachers themselves, when they find that the 
material helps them organize their day, gives them a way to 
plan and conduct literacy activities.
    The teachers have also said that there has been a lot more 
parent involvement as a result of them doing the project. One 
of the teachers gave us an example of a parent picking up a 
child one day and the child saying to their dad, ``You are big 
and I am little.'' And the dad says, ``Oh, how do you know 
that?'' And he says, ``We have been learning about big and 
little today. We watched Little Big Mouse and a lion is big and 
the mouse is little.''
    And so the parents became interested in what they were 
doing in the program, and so there has been a lot more 
conversation about it. What we found in the work that we are 
doing in Mississippi is that many of the teachers there are not 
literate. It is not just the parents. It is the teachers. We 
didn't come across that in New Mexico as much as in 
Mississippi. And the teachers themselves are learning more 
about reading and the sounds the letters make and strategies 
for becoming good readers themselves.
    Senator Murkowski. I will throw this out to any of you here 
at the panel. How important is it, at the same time that we are 
trying to encourage literacy and academic achievement, how 
important is it that we have the parental involvement in terms 
of coaching with the homework or just being supportive at all 
about approaching school? Mr. Wilson?
    Mr. Wilson. Yes, Senator; if I may. It is imperative. It is 
critical. What we see in the schools is that, and you heard it 
from the Department of Education today and from the Bureau of 
Indian Affairs, that the environmental conditions are 
inextricably linked to academic success. We know those problems 
and issues in the home don't just stay in the home, and they 
don't stay on the school bus. When those children get off of 
that school bus, they come into the schools.
    But there have been so many historical barriers to 
inclusiveness with parents in Indian education, and that is 
what we are trying to remove as well, those barriers. A lot of 
that goes into local control, tribal control, functional school 
boards, and parental outreach into the communities, strong 
after school programs that engage parents. All those factors 
you see in mainstream communities have not been replicated in 
tribal communities because of a lot of these barriers. A lot of 
them, unfortunately, have been driven by Federal Indian policy 
and education policy as well. But we have to attack that and 
really remove that and not use it as an excuse.
    But those children in their homes, and if their parents are 
not there, it just isn't going to work. There is going to be a 
disconnect.
    Mr. Teba. Madam Chair, I can speak from personal 
experience. I have five children. Four of them are grown. With 
our youngest child, she is currently in the sixth grade. We did 
things a little more differently. We got involved as parents. 
My child is in the sixth grade. She was tested at the 12.3 
reading level. It was because of parental support, us getting 
involved. We didn't do that much with our older children. They 
struggled. So it does make a difference to have parents 
involve.
    Senator Murkowski. Mr. Gipp, did you want to make a 
comment?
    Mr. Gipp. Yes; I was just going to point out that that is 
the kind of model we use at the United Tribes Technical 
College, is the family model, if you will, and all of the 
issues that relate to both learning, education, counseling, all 
of those things. In other words, we are basically educating the 
child in the early childhood centers, in the case of elementary 
schools, and the adult attending post- secondary classes.
    But also providing the supportive services, both for adults 
and children, so that the whole family can really begin to 
learn how to interact appropriately and become supportive of 
each other as they learn both academically, socially and 
vocationally, and building a model that includes a wraparound 
system of bringing the resources to the family so they can pick 
and choose and learn how to do that in more effective 
constructive ways.
    That is the kind of thing that we really employ when we 
talk about education, as well as learning.
    Senator Murkowski. How do we disseminate the information? 
You can identify some best practices. You can identify things 
that need to be done, but how do you get that out? For instance 
within the National Indian Education Association, how do you 
use that as a forum, Mr. Wilson, to advance the ideas, the best 
practices, whether it is out to the teachers or out to the 
local school board in an area?
    Mr. Wilson. Well, part of the problem with that is the 
standard best practices that we have all been looking at have 
been non-Indian models. So there has always been a difficulty 
in implementing those in tribal communities.
    What we do at our convention is, you know, we get anywhere 
from 3,000 to 5,000 people coming to it. We do create a venue 
there for tribal best practices to be disseminated at that 
convention. The constituency that we represent deals with 
virtually all the 600,000 Native American children in America 
here that are going to school. There is really serious 
jurisdictional issues between tribal grant schools, Bureau of 
Indian Affairs schools, public schools, our friend here, Mr. 
Small, who deals with impact aid schools, and tribal lands and 
all of those.
    So what we are interested in is, wow, and I think the 
Department of Education will be addressing this, their Office 
of Indian Education, with their own best practices. We do want 
to advance those. We do want to get those out there.
    Senator Murkowski. Let me ask you about that, though. You 
have identified some best practices, but you recognize that it 
is not necessarily consistent with the model that is currently 
being used for other schools across the country, that don't 
deal primarily with American Indian or Native children. Do you 
get pushback from the Department of Education saying your model 
doesn't replicate what we envision coming from the Department 
of Education?
    Mr. Wilson. I am glad you asked that, Senator, because the 
actual truth is there is a huge effort to only advance 
scientifically based research. What we are saying is, we still 
need time, they need research dollars. I am specifically 
talking about those immersion schools and what they have 
created and how they do longitudinal studies in tracking those 
young people as well.
    But what we have seen is an all out effort to really, 
through this methodology that only acknowledges reading and 
math and adequate yearly progress and what that means, which is 
just geared toward these tests. Now what has happened is there 
is this proliferation of just coaching the test, teaching the 
test.
    There has been a national alignment of curriculum, 
regardless of what schools they are, to meet those State 
standards and that information which is on the test. That is 
not, I repeat, it is not allowing for innovative and creative 
approaches, or acknowledging in tribal communities those best 
practices that really incorporate cultural integrity in 
education. I am specifically talking about these immersion 
schools.
    Senator Murkowski. Does the department say, well, there is 
flexibility within the regulations, we can figure it out; or is 
it, no, it just doesn't fit because your scores obviously 
indicate that your school is not meeting AYP?
    Mr. Wilson. You could actually ask that question better 
than myself, because what you have done with Secretary 
Spellings and prior to that Secretary Paige, you have 
negotiated with them; you have worked with them to create 
flexibility. As a U.S. Senator, that could huge effort. Imagine 
little tribal communities trying to navigate just these 
incredible obstacle and bureaucracy in doing so. It is very 
cumbersome. It is very difficult.
    We were told that. We were also several years ago, there 
was even money appropriated by the Department of Education, I 
believe $10 million, to help work with tribes to create their 
own benchmarks and assessments, and through negotiated 
rulemaking with the Bureau of Indian Affairs, to really have an 
assessment that would meet those unique needs.
    Unfortunately, that effort failed. That never came to 
light. What was adopted eventually was the State standards at 
the Bureau of Indian Affairs schools. We really believe we are 
at a point with our capabilities that we should be able to in 
tribal communities, specifically those that have a critical 
mass of tribal learners, create their own assessments and their 
own tools and their own measurement.
    So again, I am going to use that word, there is a 
disconnect between the letter of the law and that flexibility 
that is written in there, versus actual reality. There is a gap 
between that promise and fulfillment in reaching that.
    Senator Murkowski. Ms. Kirsch.
    Ms. Kirsch. I just want to speak a little bit to the 
research. One of the efforts that we made with this project was 
in developing the materials to make sure they were culturally 
relevant.
    But we also made an effort on the research for some of 
these very reasons. Just for example, if you are trying to 
measure a child's mastery of vocabulary and their language 
skills, if you use a standardized test like the Peabody Picture 
Vocabulary Test, and you have a picture of a typical house that 
most people in this room would recognize as a house, a child in 
Cochiti Pueblo might not recognize that as a house. So they are 
not going to say that that is a house. It will show that their 
language skills are in deficit.
    One of the things that we did is we sat down with all the 
research measures that we were contemplating using, with 
representatives from the tribes, and looked at all the 
pictures. If something is a hat, but it is called a cap, or 
vice versa, we really tried to select pictures that were going 
to be culturally relevant. There were certain tribes where 
their children cannot point to certain animals. So even if that 
is the right answer on the test, they are not going to point to 
that.
    So I think there is also an issue with the research 
measures themselves and how culturally relevant those measures 
are and are they really capturing all of the skills, 
particularly in literacy, that the children do have at that 
age.
    I think the challenge even in creating these materials, the 
tribes that we worked with at the end were very, very grateful 
to have had the opportunity to help create them, because what 
they said is generally they are handed materials, whether it is 
from Head Start or elsewhere, here is the curriculum to use, 
and they haven't had any hand in what those materials are going 
to feel like and look like, and how they can anticipate them 
being used in their classrooms.
    So I think that is just another important thing to look at 
overall in terms of best practices on materials or even the 
assessments that are being done.
    Senator Murkowski. It is such a key point. I think perhaps 
those that are not familiar with very distinct ethnic groups 
that have unique aspects to them. I am thinking specifically of 
our Alaska Natives. When I go into the classroom in some of the 
villages, and you look at the little alphabet board up there 
that has the animal attached to the letter "A,'' it is a very 
different series of pictures than what I experienced as a kid 
growing up in a more urban setting. It is pictures that these 
kids can relate to, whether it is the berries or the animals or 
the whale, or whatever. But they can relate to them instead of 
having it be some foreign thing that the do not understand.
    When you get into a standardized test and it is asking a 
question that uses the word ``sidewalk,'' and you are a child 
that has never seen a sidewalk, doesn't have any idea what it 
is, you might be able to get to solving the story problem, but 
your mind gets hung up on what is a sidewalk. And these are 
things that we do need to take into account as we are talking 
about how we assess the children; how we provide for a 
meaningful measure.
    This, I think, gets to your point, Mr. Wilson, about having 
some flexibility. It is difficult to take a Federal standard 
like we have with No Child Left Behind, and just evenly apply 
it across 50 States and say, ``this is how we test our 
children.''
    My kids, both of my boys were part of a two-way Spanish 
immersion program from the time they were in kindergarten 
through the time they left the school. It is one of those where 
you kind of hold your breath for the first couple of years 
because, quite honestly, it doesn't seem like they are doing as 
well in their English testing as you would like them to be. As 
a parent, you are concerned that you might be jeopardizing that 
academic opportunity.
    But about midway through third grade, the statistics show 
that that child is evenly matched up in the Native language, 
the language that you speak at home, and the language that you 
are learning there. After that, the kids blast off the charts 
in terms of their academic proficiency in two languages.
    We talk a lot here in Congress about how we need to 
encourage our kids in science and math and technology. That is 
a huge part of being a competitor in a global society. But 
equally advantageous to us is when we can speak multiple 
languages. If a multiple language includes your Native cultural 
heritage language, that again, expansion fo the mind, the 
brain, I only see it as a win.
    But it is a struggle. In my son's school, we had to fight 
every year for continued funding because it was a pilot 
program. People thought we were experimenting with our 
children's education. And it wasn't until they got through 
about six years of the program and students were achieving and 
doing very well, that the school board finally said maybe this 
is a program that we want to keep around. What they have done 
is they have expanded it, and the waiting list to get into this 
public school is year after year. It draws students.
    So the successes are there with immersion programs in 
languages such as Spanish. We have Japanese, we have Russian 
now in the Anchorage school district. So it ought not to be 
such a struggle to get immersion programs within our Native 
cultural languages. And yet it seems that it is that way, that 
it is still being viewed as pilot and too experimental.
    I would like to think that we have the research back there. 
That is why I was interested in Mr. Cason's studies to 
understand how other immersion schools are doing.
    I am talking too much. I ask if any of you have any final 
comments that you would like to make this afternoon?
    Mr. Gipp. Madam Chair, the only thing I would like to 
reiterate is the need for the Committee to look at the issues 
of higher education, particularly in the area of, you mentioned 
research, and then the research that is ongoing through some of 
our tribal colleges and universities. Some of those include the 
issue of language, culture and those kinds of things.
    While I can't go into them here because of a lack of time, 
we are doing significant things when it comes to language and 
culture and history, and the restoration of those things back 
to communities through the tribal colleges and universities.
    The second part, of course, is research in academia itself, 
in things like food and nutrition. We are doing a lot of work 
in the area of food and nutrition, as are other tribal 
colleges, because of the issues such as diabetes and because of 
the issues of health and those dire circumstances that we have 
all heard about out in Indian Country.
    There is a very, very critical role for tribal colleges and 
universities in this arena, and there is a whole list of things 
that are ongoing right now that can be, and I think need to be 
amplified in terms of resources available to them.
    To do that I think is also essential to assure that higher 
education scholarships and technical training resources are 
available to students to do this kind of work, to enable them 
to learn better.
    Right now, we have seen really a loss in terms of the 
priority by the Federal government, particularly the Bureau of 
Indian Affairs, in this arena. I mentioned that they are 
planning to wipe out higher education in the year 2008. The 
endowments for tribal colleges are scheduled to be eliminated 
100 percent by next year. I have already mentioned these other 
cases.
    Senator Murkowski. Is that the President's budget then?
    Mr. Gipp. This is the President's budget incoming from the 
Department of Interior. We need to assure that these resources 
stay in place and in some cases need to be amplified.
    I have students today, I was talking to one last night, a 
White Mountain Apache student who is not getting the resources 
to attend summer school, for example, right now at our college. 
Our answer is, you keep on going, we will find the resources 
somehow, so that you can have the scholarships to go on. This 
thing is immediate.
    I have seen so many GS-15s come in and talk to us at OMB 
and at the Department of Interior, and the parade of speeches 
the last two days. Give me 1.5 GS-15 FTE positions, and I will 
fund 200 students for eight weeks, Madam Chair.
    Senator Murkowski. Thank you. I appreciate your comments. I 
don't know which GS-15 is going to volunteer back here.
    Mr. Wilson?
    Mr. Wilson. Madam Chair, again thank you for your time. 
Like yourself, I am a parent of three children in a school 
system. My one daughter goes to Mescalero Tribal School in New 
Mexico. While she is not a Mescalero, I always say she is a 
captive down there, and I am always worried about her, but they 
go to such a beautiful school.
    And then my son is in Seattle public schools where I 
reside. And my youngest daughter is in a Native American 
Montessori School in Portland, Oregon that is funded by the 
Department of Education. So it is an interesting experience. I 
share your concerns as a parent.
    I want to thank you for carrying on the commitment of your 
father as well, who was a pioneer in this immersion effort and 
this revitalization effort. We don't like to use the word 
``preservation.'' It is like we want to put our languages out 
there and make them dynamic and living, not in a jar or on a 
shelf somewhere in a museum or anything like that. We want them 
living and real. Your family has really had that commitment.
    The sad, tragic truth of this whole matter is that tribal 
America, we are the only people really subjected to Federal 
policies to quash their languages, to kill these languages. We 
have an opportunity here. As I said earlier before you came in, 
it is closing rapidly. We are in the last, last minute, the 
59th minute of the last hour, I should say, if we are going to 
do this and change this. We really have to reward, as you said 
earlier, contextual learning, experiential learning and 
expeditionary learning that reaches the same goals that we are 
all desirous of. So I applaud you on that.
    Prior to you coming in as well, Senator Dorgan and Chairman 
McCain had issues with the report that came out about rural 
schools and how our young people were doing there. We asked the 
Committee on Indian Affairs to look into that, because the 
simple truth is there are very few incentives now for highly 
qualified teachers to come out into our communities, to come 
out into these rural areas.
    As you know, our Nation's highways and roads carry people 
far away from where we actually live. They never see these 
conditions. It is unfortunate, but what is facing those young 
people there, they don't have after-school educational 
opportunities. They don't have high quality libraries. They 
don't have these state of the art facilities and technology. 
They don't even have housing for teachers.
    As you said so many times, you have places in Alaska where 
you have teachers residing in closets on campus. This shouldn't 
be, and this is part of the lack of equal opportunity that is 
facing our young people.
    What was also mentioned was this issue with the brick and 
mortar and the BIA school construction. I would urge the 
committee to form a commission to look into this because the 
tribes keep blaming the BIA for dragging their feet on the 
brick and mortar, and the BIA keeps saying that the tribes 
aren't ready with their impact studies; they are not ready with 
their blueprints; they are not ready with these things.
    In the meantime, the cost of construction is going up 
exponentially every day. Every hour it is getting higher. If we 
don't solve this now, it is never going to get solved in a 
proper manner and we are going to be having this same 
discussion year in and year out. The priority list keeps 
changing. As we are building these new ones, other buildings 
are crumbling and we are going to be spending more and more 
money on that.
    Chairman McCain asked, what would it take; what would that 
investment take to fix these schools now? I urge you guys to 
form that commission to look into that because right now 
everybody is pointing fingers and nobody is coming up with 
those solutions for how we need to keep moving on that backlog.
    Finally, it was mentioned about suicide before you came in 
as well, and this epidemic. This is not an epidemic, what is 
happening now. This is a continuation of something that has 
been very sad and tragic in our country, only now there is more 
media on it; there is more attention on it, because the 
Committee on Indian Affairs has taken a serious interest in it.
    Where my mentor, Dr. Gipp, is from, they had an epidemic 
outbreak there back in 1997 and 1998. Assistant Secretary 
Glover tried to address it at that time. Here we are, all these 
years later, Mr. Cason is expressing concern on that as well. 
But what have we actually done? What is the safety net that we 
have created for these children?
    I will tell you, there is a finality in hanging yourself or 
shooting yourself, but there is also a slow death in alcoholism 
and drug use and these other things. It is just the same. It is 
suicide.
    What we have to do is get back to this culture, our 
languages, and this whole sense of resiliency, and bicultural 
competence and bilingualism creates the healthiest minds. The 
best that we have in Indian country comes from those people 
that can fluctuate smoothly between these both worlds.
    So I would just leave you with that final note. I thank you 
for your time, your commitment. We appreciate it.
    Senator Murkowski. Thank you.
    Mr. Small, just very briefly because we are going to have 
to conclude.
    Mr. Small. The National Association of Federally Impacted 
Schools and the National Association of Indian Impacted 
Schools, also support the S. 2674 of language survival. It is a 
proven fact that children do learn, just as you say, in two 
languages. Window Rock, AZ, under Superintendent Deborah 
Dennison, last year made AYP and they had a full immersion 
school, and have done very well. She has since moved on to 
another school.
    We talk about facilities. Mr. Wilson has asked about taking 
a look at the facilities in the BIA schools. We serve 93 
percent of the Indian children in the public schools. Our 
facilities are in need also. Along with that study, just as I 
say in my testimony, we really need a GAO study on that issue, 
and especially the issue of equalization of our impact aid 
funds.
    Senator Murkowski. Thank you.
    Mr. Small. Thank you.
    Senator Murkowski. Ladies and gentlemen, thank you. I 
appreciate your testimony this afternoon.
    With that, we stand adjourned.
    [Whereupon, at 11:20 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Beth Kirsch, Series Producer, Between the Lions

    Hello, my name is Beth Kirsch, and I'd like to thank you for the 
opportunity to speak before this committee. I am the series producer 
for Between the Lions, the award-winning PBS children's show created 
specifically to help children learn to read.
    In addition to the broadcast series, which reaches 4 million weekly 
viewers nationwide, Between the Lions is committed to reaching those 
children most at risk for reading failure. We began with a project in 
Mississippi, which has the lowest literacy rates in the country, and 
most recently have been working with American Indian tribes in New 
Mexico and Montana. The results so far have been very encouraging, and 
I will tell you more about the work we've done in a minute. First I'd 
like to give you a little more background about Between the Lions.
    The television series premiered in April 2000 and airs daily on PBS 
stations around the country. To date, we have produced 90 episodes, all 
focused on building children's love of reading and improving key 
literacy skills, such as phonemic awareness, phonics, vocabulary, 
comprehension, and fluency. The series is produced by WGBH--the public 
television station in Boston, along with Sirius Thinking in New York, 
and Mississippi Public Broadcasting.
    Between the Lions was created with reading experts from around the 
country, and every character and segment of the show draws on 
scientific research about how children learn to read. Scientifically 
based research has also demonstrated that children who view the series 
gain more literacy skills and at a faster rate than children who don't 
watch the show. Between the Lions was one of the first new PBS series 
supported by Ready To Learn funding, and we are very grateful to 
Congress for continuing to support the Ready To Learn program.
    Through our initial work with two communities in Mississippi, we 
learned three important lessons:

    No. 1. It is essential to focus attention on preschool literacy, 
because so many children enter kindergarten well behind their peers--in 
vocabulary, letter knowledge, and even such basic skills as knowing how 
to handle a book. When you start out so far behind, it is very, very 
difficult to catch up.
    No. 2. Preschool teachers often have little or no early childhood 
education or training in how to teach literacy. In fact, many are not 
even aware of the critical role they play in helping children become 
good readers once they enter kindergarten.
    No. 3. Preschool teachers need easy-to-use, sequenced materials 
that help them plan and carry out literacy activities.

    With all this in mind, we decided to create a project for American 
Indian children in New Mexico, because we saw a tremendous need based 
on national reading scores, and because we would have the opportunity 
to develop our materials with the input of many different American 
Indian tribes. We saw this as a pilot that, if successful, could then 
be offered to other American Indian Head Start programs.
    When we first presented the idea to tribal Head Start directors we 
were greeted with much enthusiasm as well as a strong interest in 
helping us shape the materials so that they would be culturally 
appropriate to each of the tribes. In partnership with KNME, the public 
television station in Albuquerque, we spent considerable time with 
directors, teachers, and cultural specialists from the tribal Head 
Start programs, getting their input on the content and approach for all 
the materials we provided. In fact, at their suggestion, with KNME we 
filmed several new segments featuring American Indian children, so they 
would see kids like themselves in familiar landscapes reflected in the 
materials they viewed. The tribes also gave us significant input on the 
design of the research study and the measures that were used, again to 
make sure they were culturally sensitive.
    For example:

  <bullet> \\\\\\A typical drawing of a house would be instantly 
        recognizable to anyone here, but that's not what a house looks 
        like in Cochiti Pueblo. So, a standardized test might show that 
        that child doesn't know the meaning of the word ``house.''
  <bullet> \\\\\\Some tribes have prohibitions against children 
        pointing to pictures of certain animals, so a child won't point 
        to that picture even if it's the right answer. We avoided 
        pictures of any animals that fell into this category.

    Eleven tribes agreed to participate in the project, which began in 
fall 2004, with Federal funding that Senator Domenici helped secure. 
For each of their Head Start classrooms we provided:

  <bullet> \\\\\\A set of 3 DVDs, with 16 of our episodes edited so 
        that they were better suited for preschool children.
  <bullet> \\\\\\A DVD player.
  <bullet> \\\\\\A teacher's guide, with extensive lessons designed to 
        meet Head Start literacy outcomes and state preschool 
        standards.
  <bullet> \\\\\\A companion set of 32 children's books, 2 per lesson, 
        carefully selected to feature many authentic American Indian 
        stories based in the Southwest.
  <bullet> \\\\\\A bin of classroom materials, including alphabet 
        strips, poem charts, songs, magnetic letters, word cards, 
        flannel boards, et cetera.

    We also provided considerable training for the Head Start teachers, 
to familiarize them with the materials and how to carryout the lessons. 
KNME and WGBH provided follow-up support and visited the classrooms 
throughout the school year.
    Dr. Deborah Linebarger, assistant professor at the University of 
Pennsylvania, conducted a research study to determine whether this 
intervention improved the children's early literacy skills. She will be 
presenting her full findings at a meeting with the tribes in New Mexico 
at the end of this month. The initial findings are very positive, with 
the participating children making statistically significant gains in 
several key areas of literacy, such as:

  <bullet> \\\\\\Letter knowledge.
  <bullet> \\\\\\Picture naming: Oral language/vocabulary.
  <bullet> \\\\\\Phonemic awareness: blending sounds to make words.

    Perhaps the most impressive finding is that the number of children 
at risk for reading failure decreased from 39 percent to 12 percent, 
and the number of children scoring above average increased from 23 
percent to 64 percent, based on the Get Ready to Read screening tool.
    The Head Start teachers have told us that they have seen a real 
difference since they began using the Between the Lions materials. The 
children use more complex and expressive language, they're enthusiastic 
about what they're learning, and the teachers find it easier to plan 
and organize their day.
    We are seeking to expand the materials from 16 lessons to 32, to 
cover a full school year. We are also interested in expanding the 
project within New Mexico, and to other American Indian tribes 
nationwide. Already we have begun working with the Cree Tribe at the 
Rocky Boy Reservation in Montana.
    Since the beginning of the project, we have benefited from the 
support of Native American leaders in the state. One of the people who 
has helped make the project a success is Bernie Teba, who will talk 
more about the impact of this Between the Lions American Indian Head 
Start Literacy Initiative in New Mexico.
    Thank you for your interest.

    [GRAPHIC] [TIFF OMITTED] T7768.001
    
    [GRAPHIC] [TIFF OMITTED] T7768.002
    
    [GRAPHIC] [TIFF OMITTED] T7768.003
    
    [GRAPHIC] [TIFF OMITTED] T7768.004
    
    [GRAPHIC] [TIFF OMITTED] T7768.005
    
    [GRAPHIC] [TIFF OMITTED] T7768.006
    
    [GRAPHIC] [TIFF OMITTED] T7768.007
    
    [GRAPHIC] [TIFF OMITTED] T7768.008
    
    [GRAPHIC] [TIFF OMITTED] T7768.009
    
    [GRAPHIC] [TIFF OMITTED] T7768.010
    
    [GRAPHIC] [TIFF OMITTED] T7768.011
    
    [GRAPHIC] [TIFF OMITTED] T7768.012
    
    [GRAPHIC] [TIFF OMITTED] T7768.013
    
    [GRAPHIC] [TIFF OMITTED] T7768.014
    
    [GRAPHIC] [TIFF OMITTED] T7768.015
    
    [GRAPHIC] [TIFF OMITTED] T7768.016
    
    [GRAPHIC] [TIFF OMITTED] T7768.017
    
    [GRAPHIC] [TIFF OMITTED] T7768.018
    
    [GRAPHIC] [TIFF OMITTED] T7768.019
    
    [GRAPHIC] [TIFF OMITTED] T7768.020
    
    [GRAPHIC] [TIFF OMITTED] T7768.021
    
    [GRAPHIC] [TIFF OMITTED] T7768.022
    
    [GRAPHIC] [TIFF OMITTED] T7768.023
    
    [GRAPHIC] [TIFF OMITTED] T7768.024
    
    [GRAPHIC] [TIFF OMITTED] T7768.025
    
    [GRAPHIC] [TIFF OMITTED] T7768.026
    
    [GRAPHIC] [TIFF OMITTED] T7768.027
    
    [GRAPHIC] [TIFF OMITTED] T7768.028
    
    [GRAPHIC] [TIFF OMITTED] T7768.029
    
    [GRAPHIC] [TIFF OMITTED] T7768.030
    
    [GRAPHIC] [TIFF OMITTED] T7768.031
    
    [GRAPHIC] [TIFF OMITTED] T7768.032
    
    [GRAPHIC] [TIFF OMITTED] T7768.033
    
    [GRAPHIC] [TIFF OMITTED] T7768.034
    
    [GRAPHIC] [TIFF OMITTED] T7768.035
    
    [GRAPHIC] [TIFF OMITTED] T7768.036
    
    [GRAPHIC] [TIFF OMITTED] T7768.037
    
    [GRAPHIC] [TIFF OMITTED] T7768.038
    
    [GRAPHIC] [TIFF OMITTED] T7768.039
    
    [GRAPHIC] [TIFF OMITTED] T7768.040
    
    [GRAPHIC] [TIFF OMITTED] T7768.041
    
    [GRAPHIC] [TIFF OMITTED] T7768.042
    
    [GRAPHIC] [TIFF OMITTED] T7768.043
    
    [GRAPHIC] [TIFF OMITTED] T7768.044
    
    [GRAPHIC] [TIFF OMITTED] T7768.045
    
    [GRAPHIC] [TIFF OMITTED] T7768.046
    
    [GRAPHIC] [TIFF OMITTED] T7768.047
    
    [GRAPHIC] [TIFF OMITTED] T7768.048
    
    [GRAPHIC] [TIFF OMITTED] T7768.049
    
    [GRAPHIC] [TIFF OMITTED] T7768.050
    
    [GRAPHIC] [TIFF OMITTED] T7768.051
    
    [GRAPHIC] [TIFF OMITTED] T7768.052
    
    [GRAPHIC] [TIFF OMITTED] T7768.053
    
    [GRAPHIC] [TIFF OMITTED] T7768.054
    
    [GRAPHIC] [TIFF OMITTED] T7768.055
    
    [GRAPHIC] [TIFF OMITTED] T7768.056
    
    [GRAPHIC] [TIFF OMITTED] T7768.057
    
    [GRAPHIC] [TIFF OMITTED] T7768.058
    
    [GRAPHIC] [TIFF OMITTED] T7768.059
    
    [GRAPHIC] [TIFF OMITTED] T7768.060
    
    [GRAPHIC] [TIFF OMITTED] T7768.061
    
    [GRAPHIC] [TIFF OMITTED] T7768.062
    
    [GRAPHIC] [TIFF OMITTED] T7768.063
    
    [GRAPHIC] [TIFF OMITTED] T7768.064
    
    [GRAPHIC] [TIFF OMITTED] T7768.065
    
    [GRAPHIC] [TIFF OMITTED] T7768.066
    
    [GRAPHIC] [TIFF OMITTED] T7768.067
    
    [GRAPHIC] [TIFF OMITTED] T7768.068
    
    [GRAPHIC] [TIFF OMITTED] T7768.069
    
    [GRAPHIC] [TIFF OMITTED] T7768.070
    
    [GRAPHIC] [TIFF OMITTED] T7768.071
    
    [GRAPHIC] [TIFF OMITTED] T7768.072
    
    [GRAPHIC] [TIFF OMITTED] T7768.073
    
    [GRAPHIC] [TIFF OMITTED] T7768.074
    
    [GRAPHIC] [TIFF OMITTED] T7768.075
    
    [GRAPHIC] [TIFF OMITTED] T7768.076
    
    [GRAPHIC] [TIFF OMITTED] T7768.077
    
    [GRAPHIC] [TIFF OMITTED] T7768.078
    
    [GRAPHIC] [TIFF OMITTED] T7768.079
    
    [GRAPHIC] [TIFF OMITTED] T7768.080
    
    [GRAPHIC] [TIFF OMITTED] T7768.081
    
    [GRAPHIC] [TIFF OMITTED] T7768.082
    
    [GRAPHIC] [TIFF OMITTED] T7768.083
    
    [GRAPHIC] [TIFF OMITTED] T7768.084
    
    [GRAPHIC] [TIFF OMITTED] T7768.085
    
    [GRAPHIC] [TIFF OMITTED] T7768.086
    
    [GRAPHIC] [TIFF OMITTED] T7768.087
    
    [GRAPHIC] [TIFF OMITTED] T7768.088
    
    [GRAPHIC] [TIFF OMITTED] T7768.089
    
    [GRAPHIC] [TIFF OMITTED] T7768.090
    
    [GRAPHIC] [TIFF OMITTED] T7768.091
    
    [GRAPHIC] [TIFF OMITTED] T7768.092
    
    [GRAPHIC] [TIFF OMITTED] T7768.093
    
    [GRAPHIC] [TIFF OMITTED] T7768.094
    
    [GRAPHIC] [TIFF OMITTED] T7768.095
    
    [GRAPHIC] [TIFF OMITTED] T7768.096
    
    [GRAPHIC] [TIFF OMITTED] T7768.097
    
    [GRAPHIC] [TIFF OMITTED] T7768.098
    
    [GRAPHIC] [TIFF OMITTED] T7768.099
    
    [GRAPHIC] [TIFF OMITTED] T7768.100
    
    [GRAPHIC] [TIFF OMITTED] T7768.101
    
    [GRAPHIC] [TIFF OMITTED] T7768.102
    
    [GRAPHIC] [TIFF OMITTED] T7768.103
    
    [GRAPHIC] [TIFF OMITTED] T7768.104
    
    [GRAPHIC] [TIFF OMITTED] T7768.105
    
    [GRAPHIC] [TIFF OMITTED] T7768.106
    
    [GRAPHIC] [TIFF OMITTED] T7768.107
    
    [GRAPHIC] [TIFF OMITTED] T7768.108
    
    [GRAPHIC] [TIFF OMITTED] T7768.109
    
    [GRAPHIC] [TIFF OMITTED] T7768.110
    
    [GRAPHIC] [TIFF OMITTED] T7768.112
    
    [GRAPHIC] [TIFF OMITTED] T7768.113
    
    [GRAPHIC] [TIFF OMITTED] T7768.114
    
    [GRAPHIC] [TIFF OMITTED] T7768.115
    
    [GRAPHIC] [TIFF OMITTED] T7768.116
    
    [GRAPHIC] [TIFF OMITTED] T7768.117
    
    [GRAPHIC] [TIFF OMITTED] T7768.118
    
    [GRAPHIC] [TIFF OMITTED] T7768.119
    
    [GRAPHIC] [TIFF OMITTED] T7768.120
    
    [GRAPHIC] [TIFF OMITTED] T7768.121
    
    [GRAPHIC] [TIFF OMITTED] T7768.122
    
    [GRAPHIC] [TIFF OMITTED] T7768.123
    
    [GRAPHIC] [TIFF OMITTED] T7768.124
    
    [GRAPHIC] [TIFF OMITTED] T7768.125
    
    [GRAPHIC] [TIFF OMITTED] T7768.126
    
    [GRAPHIC] [TIFF OMITTED] T7768.127
    
    [GRAPHIC] [TIFF OMITTED] T7768.128
    
    [GRAPHIC] [TIFF OMITTED] T7768.129
    
    [GRAPHIC] [TIFF OMITTED] T7768.130
    
    [GRAPHIC] [TIFF OMITTED] T7768.131
    
    [GRAPHIC] [TIFF OMITTED] T7768.132
    
    [GRAPHIC] [TIFF OMITTED] T7768.133
    
    [GRAPHIC] [TIFF OMITTED] T7768.134
    
    [GRAPHIC] [TIFF OMITTED] T7768.135
    
    [GRAPHIC] [TIFF OMITTED] T7768.136
    
    [GRAPHIC] [TIFF OMITTED] T7768.137
    
    [GRAPHIC] [TIFF OMITTED] T7768.138
    
    [GRAPHIC] [TIFF OMITTED] T7768.139
    
    [GRAPHIC] [TIFF OMITTED] T7768.140
    
    [GRAPHIC] [TIFF OMITTED] T7768.141
    
   Prepared Statement of William H. Wilson, chair, Hawaiian Studies 
   Division Ka Haka'Ula O Ke'elikolani College of Hawaiian Language 
                     University of Hawai'i at Hilo

    Aloha members of the Senate Committee on Indian Affairs. My name is 
Dr. William H. Wilson. I am a division chair within the Hawaiian 
language college establish by the State of Hawaii to provide education 
through the medium of the Hawaiian language. Our college includes a 
B.A. program, a teacher certification program, a master's program, and 
a Ph.D. program planned to begin this fall. These programs are all 
taught through the Hawaiian language and are the first programs of 
their kind in the United States. In addition, our college includes a 
preschool through grade 12 laboratory school which provides education 
in the model called Native American Language Nest/Survival School 
Education. The college operates in consortium with the non-profit 'Aha 
Punana Leo, Inc. which runs 11 Hawaiian language nests throughout the 
State while providing additional support to the entire preschool to 
graduate school Hawaiian medium school system.
    My testimony is provided as supportive information relative to the 
academic benefits of education through Native American Language Nests 
and Native American Language Survival Schools. Our Hawaiian language 
college and the affiliated 'Aha Punana Leo are among the most 
experienced entities relative to Native American Language Nest/ 
Survival School Education in the country.
    Native American Language Nests and Native American Language 
Survival Schools have been very successful academically. Normally, 
Native American students, including Native Hawaiian students, have a 
higher drop out rate, than other students in surrounding communities. 
Yet our laboratory school program, and Hawaiian language survival 
schools statewide, have a very high rate of high school graduation--100 
percent at our laboratory school. Similar results exist for the model 
nationwide.
    Native American language survival schools also have a high college 
attendance rate. The rate of college attendance for students from our 
laboratory school is 80 percent. Again similar rates are occurring for 
other places using the model. The students who are going on to college 
are succeeding and remaining in college to graduate. We not only have 
students enrolling in local colleges and universities, but also 
students in major national and international universities. Our 
laboratory school has former students in such well known universities 
as Stanford, Loyolla Marymount, and Oxford.
    With less than 100 high school students, our laboratory school this 
past year won a State robotics contest, had State champions in 
athletics, and had 2 of the 10 students chosen statewide from 
approximately 10,000 eligible Native Hawaiian students for a summer 
science biomedical science program at Harvard.
    While the academic record of Native American Survival Schools is 
impressive, the reasons for establishing these schools and the Native 
American Language Nests go beyond improving academic performance. As 
others have testified, Native American languages, and thus the cultures 
dependent on those languages, have been nearly exterminated by 
compulsory schooling forbidding use of Native American languages. For 
many Native American peoples, the extermination of traditional 
languages is also an issue of religious freedom. Schooling that results 
in eliminating a child's knowledge of a traditional language prevents 
that child from participating in traditional religion conducted in the 
language upon reaching adulthood. By teaching through the medium of 
Native American languages, the Native American Language Nests/ Survival 
School model assures the survival of Native American languages.
    The right of indigenous peoples to schooling through the medium of 
their own languages is recognized and assured by advanced democracies 
such as Great Britain, New Zealand, and Finland and even Third World 
countries such as India and China. The United States recognizes the 
importance of this educational right of indigenous minorities as part 
of its support for emerging democracies in other countries. Indeed, the 
United States developed an Interim Iraqi Constitution that established 
a constitutional right for education through their own languages for 
the indigenous peoples of Iraqi such as the Turkomen, Kurds, and 
Assyrians. These indigenous minority peoples had formerly been 
forbidden education in their own languages by Saddam Hussein who 
insisted on sole use of the majority national language--Arabic. These 
indigenous language education provisions were voted into the subsequent 
Iraqi Constitution by the Iraqi people themselves.
    Native Americans, including Native Hawaiians, are fighting today in 
Iraq in support of that Iraqi Constitution guaranteeing government 
provision to indigenous Iraqi children of schooling through their own 
indigenous languages. The sad fact, however, is that the Native 
American soldiers fighting in Iraq do not have access to comparable 
education through their own Native American languages for their own 
children back in the United States.
    While the United States has indicated its own support for the 
democratic ideal of the choice of education through their own languages 
for indigenous peoples through the Native American Languages Act of 
1990, that policy statement has been largely ignored. The Native 
American Languages Act has been thwarted by those who have been 
disregarding the act, including Federal education officials, States, 
school administrators, and colleges. In addition Federal funding 
targeting schools taught through the medium of Native American 
languages does not exist. The result is that Native American languages 
continue to be diminished and exterminated while children who could 
benefit academically from Native American language education continue 
to flounder in the schools.
    Changes need to be made in the Elementary and Secondary Education 
Act as well as in the Higher Education Act to reflect U.S. policy 
regarding Native American language medium education as expressed in the 
Native American Languages Act to assure that U.S. Native American 
language policy is carried out. Furthermore, dedicated funding for 
Native American Language Nests and Native American Language Survival 
Schools is desperately needed to maintain existing programs and expand 
them to served more Native American languages and children.
    You have in the Congress three bills that can provide needed 
dedicated funding for Native American Language Nests and Native 
American Language Survival Schools, namely S. 2674, H.R. 5222, and H.R. 
4766. I strongly urge that Congress make use of these vehicles to 
provide support to Native American Language Nests and Native American 
Language Survival Schools this session.

[GRAPHIC] [TIFF OMITTED] T7768.142

[GRAPHIC] [TIFF OMITTED] T7768.143

[GRAPHIC] [TIFF OMITTED] T7768.144

[GRAPHIC] [TIFF OMITTED] T7768.145

[GRAPHIC] [TIFF OMITTED] T7768.146

[GRAPHIC] [TIFF OMITTED] T7768.147

[GRAPHIC] [TIFF OMITTED] T7768.148

[GRAPHIC] [TIFF OMITTED] T7768.149

[GRAPHIC] [TIFF OMITTED] T7768.150

[GRAPHIC] [TIFF OMITTED] T7768.151

[GRAPHIC] [TIFF OMITTED] T7768.152

[GRAPHIC] [TIFF OMITTED] T7768.153

[GRAPHIC] [TIFF OMITTED] T7768.154

[GRAPHIC] [TIFF OMITTED] T7768.155

[GRAPHIC] [TIFF OMITTED] T7768.156

[GRAPHIC] [TIFF OMITTED] T7768.157

[GRAPHIC] [TIFF OMITTED] T7768.158

[GRAPHIC] [TIFF OMITTED] T7768.159

[GRAPHIC] [TIFF OMITTED] T7768.160

[GRAPHIC] [TIFF OMITTED] T7768.161

[GRAPHIC] [TIFF OMITTED] T7768.162

[GRAPHIC] [TIFF OMITTED] T7768.163

[GRAPHIC] [TIFF OMITTED] T7768.164

[GRAPHIC] [TIFF OMITTED] T7768.165

[GRAPHIC] [TIFF OMITTED] T7768.166

[GRAPHIC] [TIFF OMITTED] T7768.167

[GRAPHIC] [TIFF OMITTED] T7768.168

[GRAPHIC] [TIFF OMITTED] T7768.169

[GRAPHIC] [TIFF OMITTED] T7768.170

[GRAPHIC] [TIFF OMITTED] T7768.171

[GRAPHIC] [TIFF OMITTED] T7768.172

[GRAPHIC] [TIFF OMITTED] T7768.173

[GRAPHIC] [TIFF OMITTED] T7768.174

[GRAPHIC] [TIFF OMITTED] T7768.175

[GRAPHIC] [TIFF OMITTED] T7768.176

[GRAPHIC] [TIFF OMITTED] T7768.177

[GRAPHIC] [TIFF OMITTED] T7768.178

[GRAPHIC] [TIFF OMITTED] T7768.179

[GRAPHIC] [TIFF OMITTED] T7768.180

[GRAPHIC] [TIFF OMITTED] T7768.181

[GRAPHIC] [TIFF OMITTED] T7768.182

[GRAPHIC] [TIFF OMITTED] T7768.183

[GRAPHIC] [TIFF OMITTED] T7768.184

[GRAPHIC] [TIFF OMITTED] T7768.185

[GRAPHIC] [TIFF OMITTED] T7768.186

[GRAPHIC] [TIFF OMITTED] T7768.187

[GRAPHIC] [TIFF OMITTED] T7768.188

[GRAPHIC] [TIFF OMITTED] T7768.189

[GRAPHIC] [TIFF OMITTED] T7768.190

[GRAPHIC] [TIFF OMITTED] T7768.191

[GRAPHIC] [TIFF OMITTED] T7768.192

[GRAPHIC] [TIFF OMITTED] T7768.193

[GRAPHIC] [TIFF OMITTED] T7768.194

[GRAPHIC] [TIFF OMITTED] T7768.195

[GRAPHIC] [TIFF OMITTED] T7768.196

[GRAPHIC] [TIFF OMITTED] T7768.197

[GRAPHIC] [TIFF OMITTED] T7768.198

[GRAPHIC] [TIFF OMITTED] T7768.199

[GRAPHIC] [TIFF OMITTED] T7768.200

[GRAPHIC] [TIFF OMITTED] T7768.201

[GRAPHIC] [TIFF OMITTED] T7768.202

[GRAPHIC] [TIFF OMITTED] T7768.203

[GRAPHIC] [TIFF OMITTED] T7768.204

[GRAPHIC] [TIFF OMITTED] T7768.205

[GRAPHIC] [TIFF OMITTED] T7768.206

[GRAPHIC] [TIFF OMITTED] T7768.207

[GRAPHIC] [TIFF OMITTED] T7768.208

[GRAPHIC] [TIFF OMITTED] T7768.209

[GRAPHIC] [TIFF OMITTED] T7768.210

[GRAPHIC] [TIFF OMITTED] T7768.211

[GRAPHIC] [TIFF OMITTED] T7768.212

[GRAPHIC] [TIFF OMITTED] T7768.213

[GRAPHIC] [TIFF OMITTED] T7768.214

[GRAPHIC] [TIFF OMITTED] T7768.215

[GRAPHIC] [TIFF OMITTED] T7768.216

[GRAPHIC] [TIFF OMITTED] T7768.217

[GRAPHIC] [TIFF OMITTED] T7768.218

[GRAPHIC] [TIFF OMITTED] T7768.219

[GRAPHIC] [TIFF OMITTED] T7768.220

[GRAPHIC] [TIFF OMITTED] T7768.221

[GRAPHIC] [TIFF OMITTED] T7768.222

[GRAPHIC] [TIFF OMITTED] T7768.223

[GRAPHIC] [TIFF OMITTED] T7768.224

[GRAPHIC] [TIFF OMITTED] T7768.225

[GRAPHIC] [TIFF OMITTED] T7768.226

[GRAPHIC] [TIFF OMITTED] T7768.227

[GRAPHIC] [TIFF OMITTED] T7768.228

[GRAPHIC] [TIFF OMITTED] T7768.229

[GRAPHIC] [TIFF OMITTED] T7768.230

[GRAPHIC] [TIFF OMITTED] T7768.231

[GRAPHIC] [TIFF OMITTED] T7768.232

[GRAPHIC] [TIFF OMITTED] T7768.233

[GRAPHIC] [TIFF OMITTED] T7768.234

[GRAPHIC] [TIFF OMITTED] T7768.235

[GRAPHIC] [TIFF OMITTED] T7768.236

[GRAPHIC] [TIFF OMITTED] T7768.237

[GRAPHIC] [TIFF OMITTED] T7768.238

[GRAPHIC] [TIFF OMITTED] T7768.239

[GRAPHIC] [TIFF OMITTED] T7768.240

[GRAPHIC] [TIFF OMITTED] T7768.241

[GRAPHIC] [TIFF OMITTED] T7768.242

[GRAPHIC] [TIFF OMITTED] T7768.243

[GRAPHIC] [TIFF OMITTED] T7768.244

[GRAPHIC] [TIFF OMITTED] T7768.245

[GRAPHIC] [TIFF OMITTED] T7768.246

[GRAPHIC] [TIFF OMITTED] T7768.247

[GRAPHIC] [TIFF OMITTED] T7768.248

[GRAPHIC] [TIFF OMITTED] T7768.249

[GRAPHIC] [TIFF OMITTED] T7768.250

[GRAPHIC] [TIFF OMITTED] T7768.251

[GRAPHIC] [TIFF OMITTED] T7768.252

[GRAPHIC] [TIFF OMITTED] T7768.253

[GRAPHIC] [TIFF OMITTED] T7768.254

[GRAPHIC] [TIFF OMITTED] T7768.255

[GRAPHIC] [TIFF OMITTED] T7768.256

[GRAPHIC] [TIFF OMITTED] T7768.257

[GRAPHIC] [TIFF OMITTED] T7768.258

[GRAPHIC] [TIFF OMITTED] T7768.259

[GRAPHIC] [TIFF OMITTED] T7768.260

[GRAPHIC] [TIFF OMITTED] T7768.261

[GRAPHIC] [TIFF OMITTED] T7768.262

[GRAPHIC] [TIFF OMITTED] T7768.263

[GRAPHIC] [TIFF OMITTED] T7768.264

[GRAPHIC] [TIFF OMITTED] T7768.265

[GRAPHIC] [TIFF OMITTED] T7768.266

[GRAPHIC] [TIFF OMITTED] T7768.267

[GRAPHIC] [TIFF OMITTED] T7768.268

[GRAPHIC] [TIFF OMITTED] T7768.269

[GRAPHIC] [TIFF OMITTED] T7768.270

[GRAPHIC] [TIFF OMITTED] T7768.271

[GRAPHIC] [TIFF OMITTED] T7768.272

[GRAPHIC] [TIFF OMITTED] T7768.273

[GRAPHIC] [TIFF OMITTED] T7768.274

[GRAPHIC] [TIFF OMITTED] T7768.275

[GRAPHIC] [TIFF OMITTED] T7768.276

[GRAPHIC] [TIFF OMITTED] T7768.277

[GRAPHIC] [TIFF OMITTED] T7768.278

[GRAPHIC] [TIFF OMITTED] T7768.279

[GRAPHIC] [TIFF OMITTED] T7768.280

[GRAPHIC] [TIFF OMITTED] T7768.281

[GRAPHIC] [TIFF OMITTED] T7768.282

[GRAPHIC] [TIFF OMITTED] T7768.283

[GRAPHIC] [TIFF OMITTED] T7768.284

[GRAPHIC] [TIFF OMITTED] T7768.285

[GRAPHIC] [TIFF OMITTED] T7768.286

[GRAPHIC] [TIFF OMITTED] T7768.287

[GRAPHIC] [TIFF OMITTED] T7768.288

[GRAPHIC] [TIFF OMITTED] T7768.289

[GRAPHIC] [TIFF OMITTED] T7768.290

[GRAPHIC] [TIFF OMITTED] T7768.291

[GRAPHIC] [TIFF OMITTED] T7768.292

[GRAPHIC] [TIFF OMITTED] T7768.293

[GRAPHIC] [TIFF OMITTED] T7768.294

[GRAPHIC] [TIFF OMITTED] T7768.295

[GRAPHIC] [TIFF OMITTED] T7768.296

[GRAPHIC] [TIFF OMITTED] T7768.297

[GRAPHIC] [TIFF OMITTED] T7768.298

[GRAPHIC] [TIFF OMITTED] T7768.299

                                 <all>

</pre></body></html>
